<html>
<title> - PROTECTING THE NEXT GENERATION: SAFETY AND SECURITY AT BUREAU OF INDIAN EDUCATION SCHOOLS</title>
<body><pre>[Senate Hearing 115-414]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-414

PROTECTING THE NEXT GENERATION: SAFETY AND SECURITY AT BUREAU OF INDIAN 

                           EDUCATION SCHOOLS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 16, 2018

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-835 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3156415e715244424559545d411f525e5c1f">[email&#160;protected]</a> 

 


                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JOHN McCAIN, Arizona                 JON TESTER, Montana,
LISA MURKOWSKI, Alaska               BRIAN SCHATZ, Hawaii
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MIKE CRAPO, Idaho                    TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 16, 2018.....................................     1
Statement of Senator Cantwell....................................     4
    Prepared statement...........................................     4
Statement of Senator Cortez Masto................................    26
Statement of Senator Heitkamp....................................     3
Statement of Senator Hoeven......................................     1
Statement of Senator Udall.......................................     2

                               Witnesses

Dearman, Tony, Director, Bureau of Indian Education, U.S. 
  Department of the Interior.....................................     5
    Prepared statement...........................................     6
Firethunder, Cecilia, President, Oglala Lakota Nation Education 
  Coalition......................................................    11
    Prepared statement...........................................    12
Lujan, Gary, Director, Trust Land and Security, Santa Fe Indian 
  School.........................................................    16
    Prepared statement...........................................    17

                                Appendix

Flying Hawk, Hon. Robert, Chairman, Yankton Sioux Tribe, prepared 
  statement......................................................    38
Response to written questions submitted to Tony Dearman by:
    Hon. Steve Daines............................................    38
    Hon. Heidi Heitkamp..........................................    39
Response to written questions submitted by Hon. Steve Daines to 
  Cecilia Firethunder............................................    42
Weston, Hon. Troy Scott, President, Oglala Sioux Tribe, prepared 
  statement......................................................    35
Whirlwind Horse, Jon, President, Dakota Area Consortium of Treaty 
  Schools, prepared statement....................................    36

 
                    PROTECTING THE NEXT GENERATION: 
                   SAFETY AND SECURITY AT BUREAU OF 
                        INDIAN EDUCATION SCHOOLS

                              ----------                              


                        WEDNESDAY, MAY 16, 2018


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:51 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon.
    Today, the Committee will receive testimony on safety and 
security at the Bureau of Indian Education schools and 
facilities. The BIE oversees approximately 47,000 students in 
169 schools and 14 dormitories on or near 63 Indian 
reservations in 23 States. In my home State of North Dakota, 
there are 13 BIE-funded schools.
    Our hearing today focuses on Protecting the next 
generation: safety and security at BIE schools. All students 
deserve a safe and secure learning environment, and it is this 
Committee's responsibility to take a comprehensive look at the 
safety and security of schools in Indian Country.
    Over the past decade, the Department of the Interior Office 
of Inspector General, OIG, has done a series of reports on 
preventing school violence and improving emergency preparedness 
in BIE schools.
    A 2008 OIG report found that many BIE schools are 
``dangerously unprepared to prevent violence and ensure the 
safety of students and staff.'' Many BIE schools were found to 
have high staff turnover, no emergency action plan, and faulty 
infrastructure, such as inadequate fencing, unlockable doors, 
and inadequate surveillance systems.
    In fact, some BIE schools could not complete a lock-down 
drill when OIG staff was on-site. These drills are commonplace 
and used in multiple emergencies, including having an active 
shooter on or near campus.
    More recently, in its February 2018 report, the OIG found 
that the BIE was not completing background checks on employees 
who work with children. Furthermore, the report found a backlog 
of reinvestigations on current employees.
    These failures were exactly what the Indian Child 
Protection and Family Violence Prevention Act, passed by 
Congress in 1990, intended to avoid. Reinvestigations are 
supposed to happen every five years.
    Since many schools have not completed recurring background 
checks, crimes committed after being hired may go undetected. 
The OIG report concludes the backlog will only increase without 
further guidance from BIE leadership.
    In the same report, the OIG also suggested that more 
oversight over tribally-controlled schools, which account for 
nearly two-thirds of BIE schools, may be needed. Under current 
law, tribally-controlled schools are allowed to follow their 
own unique background check system, as long as it is ``no less 
stringent'' than what is required for the BIE.
    However, there have been multiple cases of substandard 
background checks being performed at these schools. More than 
this, in one instance, OIG found that background checks had 
been abandoned altogether.
    The safety of our Native American children is a top 
priority for me and this Committee. In 2016, the President 
signed into law a bill which I authored and introduced, the 
Native American Children's Safety Act. This legislation has 
worked to improve the safety of the tribal foster care system 
by requiring background checks on all adults living in a 
potential foster home.
    Homes and schools need to be safe places for our youth. No 
child or student should experience violence, especially in the 
places where they should be nurtured and educated.
    Congress and the Administration must continue to work 
together to ensure safer environments for Indian children. We 
hope to hear today how BIE and tribally-controlled schools are 
making progress in modernizing their emergency and violence 
prevention protocols to protect Indian children.
    I would like to thank our witnesses here today that will 
help guide this discussion. I will turn to Vice Chairman Udall 
for his opening remarks.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Hoeven, for working with 
me to hold this oversight hearing today.
    Recent events have once again led to a national dialogue on 
school safety. It is crucial that schools in Indian Country be 
a part of this important conversation.
    Thank you to our two tribal witnesses for joining us here 
today. Throughout her career, Cecilia Firethunder has been and 
continues to be a great advocate for Native women and Native 
education. Thank you for making the journey here today.
    I want to extend a special welcome to Gary Lujan from Santa 
Fe Indian School. Mr. Lujan is a member of the Taos Pueblo who 
has dedicated years working as a Pueblo education advocate and 
on behalf of the Santa Fe Indian School community. Thank you 
and the FSIS Board of Trustees for working with me and my staff 
to highlight school safety issues in Indian Country.
    In March, students around the Nation took part in the March 
for Our Lives. These students stood up and demanded never again 
and they kept standing up for their right to attend safe, 
welcoming schools.
    I was proud to join the march in Santa Fe with students 
from across northern New Mexico, including from Santa Fe Indian 
School. I heard many young leaders talk about the need for 
reform and resources. These brave students made very clear what 
they needed. Now, I am doing my part to carry that message here 
to Washington and to use that message to inform my work.
    On this Committee, we know all too well that Native 
students often have to fight for the same educational 
opportunities that many communities take for granted. That is 
why I worked to make sure BIE schools were a part of the Stop 
School Violence Act passed earlier this year and why I am 
interested in hearing from our witnesses today about what other 
Federal agencies could do to help BIE improve school 
preparedness.
    Mr. Lujan, I understand that some Santa Fe Indian School 
students may we watching this hearing in their Government and 
Social Studies classes today, including your son. The Santa Fe 
Indian School student body and the student-led Braves and Lady 
Braves Against School Violence Group is taking on this very 
important work. Let me just stay to those students, I am moved 
by your tenacity and your advocacy. I hope today's hearing 
amplifies your work and that of all Native students, whether 
they attend BIE schools or non-BIE schools and whether they are 
in K through 12 or college.
    Thank you again, Mr. Chairman, for working with me to hold 
this hearing. Hopefully today's discussion will do even more to 
elevate the voices of Native communities in the Senate's work 
to address school violence.
    The Chairman. Do other Senators wish to make opening 
statements? Senator Heitkamp.

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Just quickly. Thank you, Mr. Chairman. 
Thank you to you and Senator Udall for holding this hearing. I 
think it is critically important.
    After the Parkland shooting, we had a number of high 
profile incidences in North Dakota, some in schools protected 
by the sheriff's department and some in schools in communities 
that were large enough and whose law enforcement was robust 
enough to present a quick responses.
    That was not true at Turtle Mountain. It was not true when 
Lana DeCoteau called me the second day after she shut down her 
school at Turtle Mountain because of a threat. It raised the 
awareness that where are we with Native American schools and 
protecting children?
    We have a unique and critical responsibility. As we are 
asking that question of school boards and communities across 
the Country, we have to look in the mirror and ask ourselves 
that question. How long is the response time to any school in 
Indian Country where we are responsible as a government, in a 
government-to-government relationship, for the safety of 
children?
    Yes, we are responsible for the safety of all American 
children but we have a unique trust and fiduciary obligation to 
the children in Indian Country. We are part of their school 
system. We need to make sure we have the answers of how we can 
better protect children in Indian Country, how we can work with 
administrators like the two great administrators we have here 
and work within the government.
    I understand you are doing a survey and study. I am anxious 
to see that. We need to know what those resources are.
    Thank you so much, my friends, for coming. When we all work 
together, if we have one goal, making sure when children come 
to school they are safe in that learning environment, that is a 
goal regardless of political party or any other thing that 
divides us, we should all share.
    Thank you, Mr. Chairman, for holding this hearing.
    Senator Cantwell. Mr. Chairman.
    The Chairman. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I will submit a 
longer statement for the record.
    We obviously had a very tragic shooting in the Tulalip 
Marysville area a few years ago. One thing I think we need to 
remember is that when we have integrated services and 
information about domestic violence, or people who should not 
have access to guns, we need Indian Country to participate in 
that system. We need that system and the coordination of our 
national database to all work together.
    I thank the witnesses for being here.
    [The prepared statement of Senator Cantwell follows:]

Prepared Statement of Hon. Maria Cantwell, U.S. Senator from Washington
    Thank you Mr. Chairman.
    No student should fear for their life while attending school.
    However, students in Washington state and across the country have 
too often experienced the wrenching loss and tragedy of mass shootings.
    One shooting in particular is especially painful for Native 
Americans in my state: the shooting at Marysville Pilchuck High School 
in October, 2014.
    At that shooting, a 15-year old killed Gia Soriano, Andrew Fryberg, 
Zeo Galasso, Shaylee Chuckulnaskit, and wounded Nathan Hatch.
    We are still heartbroken about this shooting and continue to mourn 
the students we lost.
    We need to do more to prevent senseless shootings from occurring.
    To that end, we need to make sure our students and teachers have 
the resources they need to prevent and respond to emergencies.
    This includes established and practiced emergency plans, school 
buildings that can safely lock-down and protect students and mental 
health resources to help students that are struggling.
    I am continuing to work with my colleagues to advance these 
solutions to protect our children.

    The Chairman. With that, we will turn to our witnesses. 
Thank you for being here today.
    We have Mr. Tony Dearman, Director, Bureau of Indian 
Education, U.S. Department of the Interior here in Washington, 
D.C.; Ms. Cecilia Firethunder, President, Oglala Lakota Nation 
Education Coalition, Pine Ridge, South Dakota; and Mr. Gary 
Lujan, Director of Trust Land and Security, Santa Fe Indian 
School, Santa Fe, New Mexico. Thank you for being here.
    I want to remind you that your full written testimony will 
be included as a part of the record. If you would, please keep 
opening statements to about five minutes so we have time for 
questions.
    With that, we will begin with Mr. Dearman.

     STATEMENT OF TONY DEARMAN, DIRECTOR, BUREAU OF INDIAN 
           EDUCATION, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Dearman. Good afternoon, Chairman Hoeven, Vice Chairman 
Udall and members of the Committee.
    I am Tony Dearman, Director of the Bureau of Indian 
Education. On behalf of the BIE and the Department, thank you 
for the invitation to appear here today.
    Whether it be access to mental or behavioral health 
services or ensuring classrooms are physically safe, BIE is 
working every day to effectively and efficiently utilize public 
resources to improve accountability and better support students 
in schools.
    OIG recently highlighted concerns regarding violence at BIE 
schools as well as the need for increased scrutiny, background 
checks and improve support for tribally-controlled schools. BIE 
acknowledges we have neglected GAO and OIG reports for too 
long. We are working to address both GAO and OIG 
recommendations regarding safety as quickly as possible.
    BIE is in the final stages of formalizing our strategic 
plan to begin implementation on support specific to emotional 
preparedness and facility safety as one of six mission areas 
addressing wellness, behavioral health and student safety.
    BIE is actively collaborating with partners across Indian 
Affairs to address safety-related OIG recommendations. BIE and 
Indian Affairs administered safe school audits with a 100 
percent completion rate in 2016 and 2017. We are on track to 
complete 100 percent of inspections for 2018 and monitoring 
quality as well as whether schools have established required 
safety committees.
    BIE is working to improve local level emergency plans to 
expand training, emergency drills and other safety measures by 
adopting policies and procedures that ensure proper oversight 
in Bureau-operated schools as well as improved technical 
assistance to tribally-controlled schools.
    Employees across BIE are responding to report 
recommendations by implementing effective crisis emergency 
plans such as those for armed intruders. We are also conducting 
a variety of emergency drills and providing high quality 
conflict resolution on bullying, gang prevention, substance 
abuse, suicidal ideation, and trauma informed training so 
school staff can better recognize at-risk students and provide 
targeted assistance.
    BIE is improving threat assessment protocols and procedures 
as well as increasing access to guidance for preventing and 
responding to instances of school violence. BIE collaborates 
with local level staff to identify threats and manage support 
activities. Further, BIE recently hired data specialists to 
improve tracking and access to information regarding critical 
incidents.
    In 2018, BIE updated and communicated its list of mandatory 
and recommended trainings. For tribally-controlled schools, BIE 
reviews grant assurances to ensure compliance with legal 
requirements such as background checks. However, tribally-
controlled schools are not required to follow policies and 
procedures developed by the BIE.
    Through partnerships at both the national and local levels, 
BIE coordinates activities to improve services. For example, 
Sherman Indian School in Riverside, California contracts with a 
local private security firm to conduct detailed surveys, 
identify safety and security issues and implement corrective 
action plans. The Indian Affairs Office of Justice Services 
also provides training and enforcement services regarding gang 
resistance as well as drug abuse resistance education.
    BIE collaborates with SAMHSA and the Indian Health Service 
to address substance abuse issues and increase access to 
behavioral mental health services. While challenges exist, BIE 
and IHS recently met to discuss additional areas for 
partnership as well as continued support for MOAs among BIE 
schools and local IHS clinics to house counseling services.
    When tragedy strikes, school leaders work with their staff 
and families as they respond to suicide attempts and 
completions by assisting with coordination of local services, 
and if needed, utilizing the Department of Education's Project 
SERV grant. Project SERV assists schools in returning to their 
environments to pre-incident conditions as much as possible.
    When I served as Superintendent of Riverside Indian School 
and principal of Sequoyah High School, we knew we were the 
front lines in supporting our students on a 24-hour basis. If 
students experienced critical incidents or attempts to take his 
or her life, the event can take a toll on the entire community.
    Please know that while barriers exist, we are dedicated to 
improving services so our students can learn safely and 
uninterrupted.
    Thank you again for inviting me today. I would be honored 
to answer any questions you may have.
    [The prepared statement of Mr. Dearman follows:]

    Prepared Statement of Tony Dearman, Director, Bureau of Indian 
               Education, U.S. Department of the Interior
    Good afternoon Chairman Hoeven, Vice Chairman Udall, and Members of 
the Committee. I am Tony Dearman--the Director of the Bureau of Indian 
Education (BIE). On behalf of the BIE and the U.S. Department of the 
Interior, thank you for the invitation to appear again before the 
Committee to update you on our work. The Administration is committed to 
providing access to high-quality educational opportunities for all 
students at BIE-funded schools. As such, it is imperative that we 
provide students and staff the support needed to succeed, whether it be 
access to mental and behavioral health services or ensuring classes are 
held in a safe, well-constructed school facility. Every day we are 
working to effectively and efficiently utilize public resources and 
improve accountability to better support our schools.
Bureau of Indian Education
    The BIE supports education programs and residential facilities for 
Indian students from federally recognized tribes at 183 elementary and 
secondary schools and dormitories as well as two postsecondary 
institutions--Haskell Indian Nations University and the Southwestern 
Indian Polytechnic Institute. Of the 183 schools, the BIE directly 
operates 53 schools and dormitories while tribes, through local 
control, operate the other 130 schools and dormitories through grants 
or contracts. In total, BIE-funded schools serve approximately 46,810 
K-12 American Indian and Alaska Native students and residential 
boarders. Approximately 3,400 teachers, professional staff, principals, 
and school administrators work to support students served by BIE-
operated schools.
    We recognize that BIE-funded schools face unique and urgent 
challenges in providing a safe, high-quality education to our students. 
As I have mentioned in my previous appearances before this Committee, 
with challenges come tremendous opportunities for improvement in the 
way we operate on a day-to-day basis. We are working to think outside 
the box to expand best practices and address shortcomings. As such, the 
BIE is in the early stages of working with state education leaders from 
across the country through the Council of Chief State School Officers 
(CCSSO) to determine resources, best practices, and potential 
partnerships for improving safety and security in our schools. Because 
BIE schools are located across 23 states, it is critical that the BIE 
actively works with tribal, state and local leaders to ensure all 
students at BIE-funded schools have access to educational opportunities 
in a safe learning environment and the necessary mental and behavioral 
health supports to assist them as they work to succeed. BIE also 
collaborates with the Substance Abuse and Mental Health Services 
Administration (SAMHSA), which has expanded eligibility in its funding 
programs to include education agencies serving tribal youth. In 
addition, BIE and SAMHSA have developed a behavioral health initiative 
called ``Culture and Meth Don't Mix,'' a drug prevention curriculum for 
middle school youth.
Strategic Performance Management to Support School Safety
    As highlighted by U.S. Government Accountability Office (GAO) 
reports, a lack of consistent leadership and the absence of regular and 
consistent strategic planning have limited the BIE's ability to improve 
its core service delivery. In response, the BIE prepared a Draft 
Strategic Plan Proposal, and on October 17, 2017, published a notice in 
the Federal Register to initiate tribal consultation on the proposal. 
The BIE completed five tribal consultation sessions across Indian 
Country and hosted three listening sessions throughout the fall of 2017 
to gather substantive input from tribes and Indian education 
stakeholders.
    To ensure that the Strategic Plan is effective, the BIE 
collaborated with external subject matter expert organizations, 
including WestED, the South Central Comprehensive Center, the Building 
State Capacity and Productivity Center, and the CCSSO. These 
organizations provided BIE with technical expertise throughout the 
process and shared best practices in developing an effective, long-term 
strategic plan that guides the work of the organization for the next 
five years. As BIE works to implement the Strategic Plan and the 
associated work around safety, it will provide tribes, school boards, 
employees, and other stakeholders a mid-cycle status update during Year 
Three of the implementation phase. As part of its effort to execute 
mid- and long-term goals and strategies, including supports centered on 
student safety, the BIE will implement milestones and actions with 
progress tracked and transparently reported through a strategic 
performance management system.
    The BIE is currently in the final stages of formalizing the 
Strategic Plan, which includes supports specifically centered on 
emotional preparedness and facility safety as well as one of six 
Mission Areas directly addressing wellness, behavioral health, and 
student safety. Upon final approval, the BIE plans to aggressively 
implement its safety-related strategies.
School Safety, Monitoring, and Compliance
GAO High-Risk Status and School Safety
    In February 2017, GAO listed the BIE on its High-Risk Report (GAO-
17-317 High-Risk Series). The GAO highlighted a number of weaknesses 
noted in prior reports that inhibit the agency from efficiently 
executing its mission to serve Indian students, including safety-
related issues:

  <bullet> Indian Affairs' (IA) oversight of school safety and 
        construction, as well as how the BIE monitors the way schools 
        use Interior funds;

  <bullet> The impact of limited workforce planning in several key 
        areas related to BIE schools on service delivery;

  <bullet> The effects of aging BIE school facilities and equipment and 
        how such facilities contribute to degraded and unsafe 
        conditions for students and staff; and

  <bullet> How the lack of internal controls and other weaknesses 
        hinder IA's ability to collect complete and accurate 
        information on the physical conditions of BIE schools.

    Recently, GAO issued three additional reports that included several 
new safety-related recommendations. As I have testified previously, BIE 
is committed to addressing all GAO recommendations, both outstanding 
and more recent. As of May 2018, GAO has closed five GAO 
recommendations. Additionally, BIE has cross collaborated with partners 
from across IA to address its remaining safety-related GAO 
recommendations. The BIE is committed to working with IA, the 
Secretary's office, and our colleagues at the GAO to ensure that the 
BIE systematically and comprehensively addresses each recommendation 
for improving services.
    Further, through an IA collaborative working group to address 
outstanding safety issues, BIE has administered safe-school audits with 
a 100 percent completion rate in both 2016 and 2017. We are also on 
track to complete 100 percent of inspections in 2018 and are monitoring 
whether schools have established required safety committees. We are 
also working to ensure employee performance standards on inspections 
are consistently incorporated into the appraisal plans of personnel 
with safety program responsibilities and are on schedule to formally 
require safety inspectors to document when inspection reports are sent 
to schools and establish a process to routinely monitor the timeliness 
of such reports. Further, we have drafted and recently implemented the 
Indian Affairs Safety Health and Accessibility Inspection/Evaluation 
Guidelines (Guidelines) which will comprehensively address many of 
GAO's safety related recommendations.
Office of the Inspector General Reports and School Safety
    Similar to addressing the GAO recommendations, there are a number 
of outstanding Office of the Inspector General (OIG) report 
recommendations regarding local-level emergency plans, training, 
emergency drills and other safety measures in BIE-funded schools. The 
BIE and its partners across IA are now working diligently to address 
these recommendations. More recently, the OIG has highlighted concerns 
regarding school violence at BIE-funded schools as well as the need for 
increased scrutiny for background checks. As such, the BIE has convened 
working groups to develop the necessary policies and procedures to 
address such recommendations. To-date, employees across BIE have 
responded to these report recommendations by implementing effective 
crisis emergency plans, conducting a variety of emergency drills, and 
providing high-quality conflict resolution, bullying, gang prevention, 
and substance abuse trainings.
Safety Policies, Procedures, and Awareness
    As BIE works to address the GAO and OIG recommendations and improve 
security at its schools, the agency is focusing much-needed support on 
improving threat assessments, protocols and procedures as well as 
increasing access to guidance information for preventing and responding 
to instances of school violence. The BIE utilizes its School Safety 
Specialist to partner with key BIE staff in providing safety supports 
to BIE-funded schools as well as to coordinate with BIE Central Office 
to manage activities when threats are identified.
    To ensure the welfare and safety of students and staff at BIE-
funded schools, the agency also utilizes safety personnel to provide 
national protocols and guidance throughout the BIE school system 
uniformly in reference to issues that are national in scope. As such, 
the BIE provided guidance via a February 15, 2018 memorandum to schools 
and BIE staff regarding armed intruder policy and procedures.
    In the memo, the BIE called on schools and staff to review their 
2009 Safe School Planning Guides and perform the following duties:

  <bullet> Review and update contact information;

  <bullet> Share emergency plan information with staff and students;

  <bullet> Provide current and updated information concerning emergency 
        response techniques and plans;

  <bullet> Provide re-unification information;

  <bullet> Highlight student needs; and

  <bullet> Review threat assessments.

    The memo also emphasized the levels of preparedness schools can 
take to maintain security, including, but not limited to, lock-down 
drills; table-top exercises with stakeholders; drills with 
stakeholders; and how to receive BIE technical assistance.
    The BIE is also working to improve its safety procedures by 
providing schools and staff guidance on pertinent mandatory and 
recommended trainings to ensure that safety is the highest priority at 
BIE-funded schools. The All Academic Staff Training and Preparedness 
guidance was most recently updated on January 12, 2018 and was provided 
to schools by BIE Education Program Administrators who work directly 
with school leaders. The form lists mandatory and recommended trainings 
and provides checklists for school leaders to plan and complete such 
trainings. These trainings include, but are not limited to: Child 
Abuse/Suspected Child Abuse or Neglect Training; Emergency Management 
Plan and Procedures; Continuity of Operations Plan; Bomb Threat 
Procedures; Conflict Resolution Plans; De-escalation Techniques; and 
School Security Reviews. Further, as part of the implementation of the 
Strategic Plan, the BIE plans to comprehensively review and update 
relevant policy and procedures to improve service delivery and safety.
    BIE safety personnel provide information in a similar manner to 
both tribally controlled and Bureau-operated schools. However, levels 
of autonomy differ among tribally controlled and Bureau-operated 
schools. Bureau-operated schools are required to follow all national 
BIE policy memoranda, whereas tribally-controlled schools have the 
authority to create their own school policies and procedures, pursuant 
to any applicable law(s). Since the majority of BIE funded schools are 
directly managed by tribes or locally controlled school boards, the 
BIE's ability to oversee the implementation of safety policies is 
necessarily limited by their autonomy. However, the BIE does review 
grant assurances to ensure tribally controlled schools follow statutory 
and regulatory defined minimum requirements regarding necessary 
procedures for background checks as well as other safety measures. 
Additionally, the BIE regularly provides support and technical 
assistance, where requested, to improve safety procedures and local 
education delivery.
Safety Monitoring and Reporting
    BIE utilizes a data system for tracking incidents of school 
violence, including threats. BIE schools work to document incidents by 
entering data into the Native American Student Information System 
(NASIS), which allows the BIE to collect data from schools that submit 
such information. NASIS is a centralized system for supporting 
teachers, school staff, students, parents, and the BIE Central Office. 
NASIS provides statistical reports based on school submissions that are 
necessary for addressing the various requirements of federal programs 
as well as critical incidents.
    School-level employees and BIE NASIS specialists have access to the 
NASIS system for reporting and tracking such issues as well as 
providing pertinent information to the BIE Central Office. The 
Suspected Child Abuse/Neglect (SCAN) Program Specialist collects 
information through Critical Incident Reports once submitted by 
schools. In addition to reporting through the NASIS system, schools are 
instructed to contact key BIE personnel directly if such an issue 
occurs. As such, schools are directed to complete Critical Incident 
Reports, describing the issue in detail, and immediately contact the 
BIE Central Office, their respective Associate Deputy Director (ADD), 
Education Resource Center staff, and the SCAN Program Specialist.
Professional Development and Safety Partnerships
Professional Development
    The BIE has increased focus on professional development in the last 
two years to ensure BIE employees and school personnel have the 
training necessary to address the various safety needs of students and 
personnel in BIE-funded schools. The BIE will hold regional trainings 
this summer to assist BIE employees with understanding the latest 
policies and procedures for addressing local safety needs.
    BIE has also provided suicidal ideation recognition trainings 
resulting in an increase in identification of at-risk students as well 
as the timely delivery of services. Through trainings and an increased 
awareness of resources, BIE personnel have increasingly utilized the 
U.S. Department of Education's Project SERV program when BIE-funded 
schools respond to suicide attempts and completions. Project SERV funds 
have also been used by BIE schools to hire mental and behavioral health 
professionals to return the school environment to pre-incident 
conditions as much as possible. Individual schools may also utilize 
ISEP base funding to provide for student safety services as well as 
Project SERV funds to support short- and long-term education-related 
services to help students and staff recover from a violent or traumatic 
event.
BIA Office of Justice Services
    The BIE partners with the BIA Office of Justice Services (OJS) as 
well as local and tribal law enforcement where necessary to improve 
safety in BIE-funded schools. Schools like Sherman Indian School also 
contract with a local private security firms in order to take the 
burden off school staff in conducting detailed surveys, identifying 
safety and security deficiencies, and implementing corrective action 
plans. During the 2017-2018 School Year, approximately $1.8 million in 
Safe and Secure Schools funding assisted in school safety audits and 
supporting onsite School Resource Officers (SROs) that are hired and 
supervised by BIA OJS.
    In addition to OJS providing SROs, OJS provides training and other 
direct law enforcement safety services to BIE-funded schools, 
including:

  <bullet> Gang Resistance Education and Training (GREAT);

  <bullet> Drug Abuse Resistance Education (DARE); and

  <bullet> Alert Lockdown Inform Counter Evacuate (ALICE) active 
        shooter response.

Indian Health Services
    Significant challenges exist in the delivery of behavioral and 
mental health services for BIE schools located in rural, geographically 
isolated locations, including the lack of local Indian Health Service 
(IHS) resources; lack of private practice and/or local hospital and 
clinical resources; and difficulty recruiting qualified licensed 
counselors and behavioral health and safety professionals. To work 
toward addressing need, BIE actively partners with IHS to better 
address the behavioral health needs of our schools and instances of 
suicide among BIE-funded students. BIE leadership recently met with IHS 
leaders to discuss areas for partnership as well as the continuation of 
support for local Memoranda of Agreement (MOA) being established by 
BIE-funded schools and IHS clinics to provide direct counseling 
services to BIE students.
FY 2018 Funding and School Facilities
    In the FY 2018 Omnibus spending package, Congress funded the BIA 
and BIE at $3.1 billion--an increase of $204 million above the FY 2017 
enacted level. This included $129 million in infrastructure increases 
for schools and law enforcement. Through this funding, IA will work to 
address the current backlog in school construction and maintenance as 
well as provide local technical assistance to increase school safety.
    At the end of the Second Quarter of FY 2018, total deferred 
maintenance for education facilities was $547 million, including $380 
million for buildings and $167 million for grounds. Deferred 
maintenance for education quarters was roughly $75 million. 
Additionally, the cost to replace the remaining schools on the 2016 
replacement list is estimated at $292 million through a Design-Build 
approach, which IA has found to be significantly more cost-effective 
and more efficient in decreasing construction time.
    In total, there are 72 replacement eligible schools--54 eligible 
due to poor condition and 18 eligible due to school age and proportion 
of students in portable units. This is in addition to the ten 2016 NCLB 
schools and the three previously funded 2004 replacement list schools. 
The President's FY 2019 Budget request includes a legislative proposal 
to create a Public Lands Infrastructure Fund, which would help pay for 
repairs and improvements in national parks, national wildlife refuges, 
and BIE-funded schools. As the U.S. Department of the Interior works to 
expand its energy program on federal lands and waters, this initiative 
has the potential to generate much-needed infrastructure and 
maintenance funding. BIE strongly supports this proposal and looks 
forward to working with Congress to advance this legislation.
Conclusion
    When I served as superintendent of Riverside Indian School and 
principal of Sequoyah High School, we understood that, as BIE personnel 
on the front lines, we were there to support the varying needs and 
safety of our students--often on a 24-hour basis. Between 2016 and 
2018, OJS responded to 41 threats of shootings, 19 threats of bombings, 
seven lockdowns, five evacuations, and three reports of an active 
shooter at BIE schools.
    If students experience a threat or critical incident in their 
school or a student attempts to take his or her own life, the event 
creates a widespread ripple-effect on their community. Understandably, 
those affected then have trouble learning at the same pace as 
unaffected students. Traumatic events create a lasting and profound 
experience for students and parents as well as educators and staff in 
the local community. As such, we are working every day to improve 
services to our schools, increase employee accountability, and 
coordinate with tribal, local, state, and federal partners to increase 
access to safe and secure facilities as well as guard against critical 
incidents and provide the mental and behavioral supports necessary for 
students to succeed.
    Chairman Hoeven, Vice Chairman Udall and Members of the Committee, 
thank you again for the opportunity to present testimony today. We 
appreciate your continued dedication to our students and look forward 
to working with you to ensure that BIE funded students have a safe and 
secure learning environment. I would be honored to answer any questions 
you may have.

    The Chairman. Ms. Firethunder.

  STATEMENT OF CECILIA FIRETHUNDER, PRESIDENT, OGLALA LAKOTA 
                   NATION EDUCATION COALITION

    Ms. Firethunder. [Greeting in native tongue.]
    I greet you with a warm handshake with good feelings from 
my heart.
    Chairman Hoeven, Vice Chairman Udall and honorable members 
of the Committee, it is a real honor to be here with you today.
    My name is Cecilia Firethunder. I am the President of the 
Oglala Lakota Nation Education Coalition representing six 
tribal schools on my reservation and St. Francis Indian School 
on the Rosebud Reservation. We are coordinating our activities.
    Our six schools have been given the authority to be 
locally-controlled by our tribal council. I would like to 
acknowledge my tribal council members here with us today from 
the Education Committee, Mr. C.J. Clifford and Ms. Lydia Bird 
Killer and my colleague, Dr. Kostopolous with Indian education, 
as we are moving ahead to understand more what we are doing.
    Before I go any further, I would like to also acknowledge 
that this Committee was created by Senator James Abourezk about 
150 years ago. I am alluding to what a wonderful vision he had 
to make this Committee a reality so all of our Indian issues 
could be addressed. I just wanted to make sure we remember 
Senator Abourezk.
    The Pine Ridge Reservation is located in southwestern South 
Dakota covering an area of approximately 3 million acres and 
home to 45,000 people. Connecting tribal youth to quality 
education services across these great distances is a constant 
challenge for families and our tribal government.
    Assuming they make it through daily safety hazards posed by 
our inadequate and under-developed road infrastructure, tribal 
youth have overcome the effects of years of under-funding and 
under-resourcing that have left our schools woefully unfit to 
address their needs.
    I want to be real clear that I understand this is about 
safety in our schools and what we are doing. As local control, 
we are responsible to make sure within our policy and personnel 
procedures we have in place ways to do background checks of 
anyone who applies for a job in our schools. I think we are 
doing a very good job.
    When we sign assurances that we are getting money from the 
BIA, we are also saying we are going to follow the law to make 
sure we do the background checks of anyone who applies for a 
job in our schools.
    I included a chart. Under facilities are the resources we 
need to hire security guards and to enhance whatever safety 
items we have to install, cameras, metal detectors and all this 
other stuff.
    As we began to take a look at some of the issues, my school 
boards want me to reiterate very clearly that it is not about 
anything except the underfunding of facilities. We use our 
education dollars, called ISEP, to make up for shortfalls the 
Bureau does not ask for over here on this side. If you look at 
ISEP, the monies we are using to make up the shortfalls, we 
could be hiring additional counselors to help our children.
    Facilities is a main concern that we have. However, as we 
move into this hearing, an important component of my work is 
the whole issue of well, healthy children. We have so many 
unmet behavioral health needs.
    Looking at the graph I included, this is a law enforcement 
report from Pine Ridge Reservation from 2015-2017. We began to 
look at the numbers. The greatest danger our children face is 
not in the schools but in their homes and their own families. I 
say that with a heavy heart because it tells us we have to do a 
better job.
    Working in my community for as long as I have, we need to 
provide more therapeutic services for our children on campus. 
When we began to look at learning, we took a look at the 
research, adverse childhood experiences, all of those things 
factor into how well our children are doing.
    The other piece I want to reiterate is public safety for 
Pine Ridge. On the Pine Ridge Reservation, when you call 911, 
we want someone at our school quickly. Right now because of 
underfunding, we do not have as many police officers to answer 
that 911 call.
    I want to encourage us to reiterate how important it is to 
get funding for our law enforcement. In past years, when we 
called 911, within minutes we had a patrol car in front of our 
school to respond to whatever crisis was at hand.
    When we began to look at what we need to do, it is about 
taking care of our babies, providing more behavioral health 
services, providing more public safety dollars. But most 
importantly, Senators, we really need the BIA to ask for the 
money it needs to make up for that portion of schools.
    Finally is safety. We have schools on Pine Ridge that are 
55 years of age. Because of the age and lack of maintenance, 
many of our schools are dangerous places for our children to be 
going to class. We have excessive issues, walls are falling 
down.
    Finally, we want to put in a plug for Wounded Knee School. 
It is 55 years old. We keep beating on the doors for a new 
school for Wounded Knee School.
    I have so much to share with you but I hope my written 
testimony can answer some of those questions. I appreciate this 
time.
    Thank you very much.
    [The prepared statement of Ms. Firethunder follows:]

  Prepared Statement of Cecilia Firethunder, President, Oglala Lakota 
                       Nation Education Coalition
Introduction
    Chairman Hoeven, Vice Chairman Udall and honorable members of the 
Committee, wopila (thank you) for this opportunity to provide testimony 
on behalf of the Oglala Lakota Nation Education Coalition. My name is 
Cecelia Firethunder, a member of the Oglala Sioux Tribe. I am speaking 
on behalf of the Oglala Lakota Nation Education Coalition (OLNEC), 
which represents the Oglala Sioux Tribe's six tribally operated grant 
schools. \1\ The schools operate pursuant to ``Tribally Controlled 
Schools Act of 1988'' (Public Law 100-297) and the Indian Self 
Determination and Education Assistance Act of 1975 (ISDEAA), as 
amended. We are located on the Pine Ridge Reservation in southwestern 
South Dakota. Our Tribal Council has given us the authority to be 
responsible for the administration and operation of all tribal school 
functions. Members of individual school boards are elected from the 
communities they serve.
---------------------------------------------------------------------------
    \1\ Little Wound School, American Horse School, Wounded Knee 
District School, Loneman Day School, Porcupine Day School, and Crazy 
Horse School.
---------------------------------------------------------------------------
I. A Fundamental Requirement: Adequate and Proper Allocation of Federal 
        Funds
    The Pine Ridge Reservation is located in southwestern South Dakota, 
covering an area of approximately 3 million acres and home to over 
45,000 people. Connecting tribal youth to quality educational services 
across these great distances is a constant challenge for families and 
our tribal government. Assuming that they make it through the daily 
safety hazards posed by our inadequate and under-developed road 
infrastructure, tribal youth must then overcome the effects of years of 
underfunding and under-resourcing that have left our schools woefully 
unfit to address their needs.
    Indian School Equalization Program (ISEP) formula funds provide 
critical support for instructional services at BIE-funded elementary 
and secondary schools, including tribally operated grant schools. The 
most pressing concerns we have right now are the chronic underfunding 
of and constraints on existing Facilities Operations and Maintenance 
accounts, which have resulted in a significant strain on our school 
resources. To fill gaps in funding, our schools are using ISEP dollars 
to cover non-instructional service costs, particularly in Facilities 
Operations and Maintenance, which have seen a decline over the years in 
necessary funding (see pie chart). This reduces an already overloaded 
ISEP budget with our high costs for facilities and staff benefits. When 
we use our ISEP funds to cover the costs for other programs, we reduce 
available funds for teacher hires and curriculum needs in the 
classroom. This, in turn, directly affects the consistency and quality 
of the educational services our students receive.
    The chart below provides a visual representation of how ISEP 
dollars have been put to other uses at the Little Wound School during 
the 2015-2016 academic year. Each of our six tribally operated grant 
schools has experienced similar circumstances and continue to face the 
diversion of ISEP funds to varying degrees.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Federal support for tribally operated schools needs to be 
sufficient to meet our students' academic needs and to cover 
administrative and facilities costs. Without adequate and properly 
allocated funds, ISEP dollars will continue to be diverted to cover the 
costs of emergencies, staff benefits, and other non-instructional 
matters associated with operating a school. OLNEC communicates with our 
Tribal Education Committee and the BIE to keep them appraised of these 
matters.
II. Facilities: Infrastructural Insecurity--A Persistent Challenge in 
        Tribally Operated Schools
    We continue to suffer negative effects from constraints on 
Facilities Operations funding. For the 2016 school year, the percentage 
of funds received in comparison to the need at our schools was 61 
percent. As a result, we must use ISEP funding to pay for custodians, 
security officers, and supplies since the Facilities Operation funding 
to pay for basic costs is not sufficient to maintain our facilities. 
Three of our six schools are older and require additional costs to 
maintain them, and our Wounded Knee School needs to be completely 
replaced.
    As our school facilities continue to age, costs will inevitably 
continue to increase. We note that federal regulations state: ``The 
Assistant Secretary [of Indian Affairs] shall arrange for full funding 
for operation and maintenance of contract schools by fiscal year 
1981.'' 25 C.F.R.  39.1203 (Future consideration of contract school 
operation and maintenance funding) (emphasis added). Yet, since 1981, 
we have received 100 percent of funding only once; funding streams do 
not meet annual need.
    None of the six schools on the Pine Ridge Reservation have been 
given any Maintenance Improvement & Repair (MI&R) funding in over a 
year and half. Our schools continue to degrade over time. Not having 
monies to repair the schools as needs arise increases overall 
maintenance costs. The Wounded Knee School is at the point of being 
unsafe for our students due to its age. It needs to be replaced. The 
Wounded Knee and Little Wound Schools are our top priorities for 
facilities maintenance and replacement. Little Wound School has 900 
students. It serves 7 of the 9 communities on our Reservation with 
buses bringing the students to the school. Wounded Knee has 300 
students. Together, they serve over 1200 students, currently in 
conditions that pose significant health and safety hazards. Dilapidated 
school facilities are not only unsafe for our students, but they are 
also not productive learning environments. The chart below provides an 
overview of the facilities funding shortfalls at the Little Wound 
School.

----------------------------------------------------------------------------------------------------------------
                      YEAR                           CALC NEED      FUNDED AMT      SHORT FALL      CONSTRAINT
----------------------------------------------------------------------------------------------------------------
2000-01                                            $1,005,509.00     $792,482.00     $213,027.00          21.19%
2001-02                                            $1,005,508.00     $875,804.00     $129,704.00          13.20%
2002-03                                              $899,819.00     $765,354.00     $134,465.00          14.90%
2003-04                                              $906,861.00     $731,415.00     $175,446.00          19.30%
2004-05                                            $1,000,257.00     $810,507.00     $189,750.00          18.97%
2005-06                                              $988,056.00     $732,382.00     $255,674.00          26.00%
2006-07                                            $1,051,707.00     $708,229.00     $343,478.00          33.00%
2007-08                                            $1,036,109.00     $705,906.00     $330,203.00          32.00%
2008-09                                            $1,115,895.00     $742,709.00     $373,186.00          49.00%
2009-10                                            $1,083,684.00     $709,325.00     $374,359.00          52.00%
2010-11                                              $988,394.00     $723,296.00     $265,098.00          43.00%
2011-12                                            $1,358,458.00     $913,303.00     $445,155.00          45.00%
2012-13                                            $1,192,285.00     $767,303.00     $424,982.00          49.00%
2013-14                                            $1,177,400.00     $732,000.00     $445,400.00          51.00%
2014-15                                            $1,250,999.00     $800,270.00     $450,729.00          49.00%
2015-16                                            $1,239,750.00     $921,895.00     $329,104.00          61.00%
----------------------------------------------------------------------------------------------------------------
    TOTAL                                             SHORT FALL                   $4,879,760.00
----------------------------------------------------------------------------------------------------------------

    The chronic underfunding of tribally operated schools--as 
demonstrated by the above chart--is further complicated by the BIE's 
use of Indian Affairs-Facility Management System (Maximo) to track 
facilities needs. Because of the way Maximo operates, we are no longer 
able to determine the shortfall percentage. As a result, we rely on the 
annual BIE budget justification for such information. Regardless of the 
source, the outcome is clear: tribally operated schools need increased 
support. While we recognize that appropriations do not fall under this 
Committee's jurisdiction, we want to share that we believe an increase 
of 31.5 percent in BIE funding and a 100 percent increase for 
Facilities Operation and Maintenance are urgently needed to address 
facility safety concerns. We ask this Committee to support these 
funding levels in your discussions with the appropriators.
    Specifically, for security purposes, all of our schools need metal 
detectors at the main entry of its facilities. Many of our schools have 
taken steps to control who enters our buildings along with additional 
resources for cameras to document any activity within the school. The 
Tribe has a K-9 unit that visits our schools on both a regular and as 
needed basis. But, due to the continued loss of funding for the Tribe's 
Public Safety Department, we have lost manpower and law enforcement 
presence for our schools. Further, given that the Tribe has only 34 
officers for our entire Reservation, police response times are unduly 
and unacceptably long. In the event of a student or public safety 
emergency at one of our schools, it is unclear when help would 
realistically be able to arrive. The lack of tribal law enforcement 
officers and resources leaves our schools and thereby our students 
vulnerable.
III. Unmet Behavioral Health Needs Threaten Student Safety
    Senators, we are talking about the safety of our children. 
Unfortunately, the greatest dangers our children face on a daily basis 
come from within their families, homes, and community. The severe 
underfunding of tribal public safety and social service programs on the 
Pine Ridge Reservation and in Indian Country has been a chronic problem 
on the congressional radar since at least the 1980s. Decades later, the 
Great Plains is experiencing unprecedented violent criminal activity 
and recent upsurges in drug trafficking, as well as a crisis level drug 
epidemic. Tragically, these public safety threats are linked to 
increases in violent crime, suicide, and child neglect.
    Suicide is the second leading cause of death for Native youth aged 
15-24 years old. Native youth attempt suicide at rates 3-10 times that 
of the national average, depending on the reservation. As shocking as 
these statistics are, the numbers may be even worse. According to a CDC 
study, suicide rates for American Indian and Alaska Native youth may be 
underreported by as much as 30 percent. Poverty, unemployment, 
inadequate health care, and substance abuse are just the first layer of 
factors affecting the mental and emotional well-being of our youth. 
Underlying issues of social despair, cultural loss, and historical 
trauma affect our communities as a whole.
    The CDC-Kaiser Permanente Adverse Childhood Experiences (ACEs) 
Study measures the effect of these and other stressful and traumatic 
factors on tribal youth. \2\ ACEs are strongly correlated with the 
development of diverse health problems including learning challenges, 
substance misuse, and behavioral and mental health issues. Both ongoing 
ACEs and unaddressed past ACEs affect the ability of our tribal youth 
to focus on and engage in learning activities in the classroom. Our 
schools, however, do not have the resources to respond to our students' 
needs. We do not have the funds to support full-time behavioral health 
specialists or to provide targeted programming to address the 
emotional, behavioral, spiritual, and cultural needs of our students.
---------------------------------------------------------------------------
    \2\ https://www.cdc.gov/violenceprevention/acestudy/about.html. 
Additional information on ACEs and its use in addressing and advancing 
behavioral health needs in Indian Country is available at https://
www.samhsa.gov/capt/practicing-effective-prevention/prevention-
behavioral-health/adverse-childhood-experiences. 
---------------------------------------------------------------------------
    Unfortunately, recent public safety statistics show that many of 
our children must overcome numerous ACEs that directly affect their 
ability to engage in the classroom. The chart below details the Oglala 
Sioux Tribe's Department of Public Safety's annual report on certain 
public safety offenses for 2015-2017.

----------------------------------------------------------------------------------------------------------------
                                                                     Domestic                      Intoxication
                                                   Child Abuse/      Violence/     Sexual Abuse       Liquor
                                                      Neglect      Spouse Abuse                      Violation
----------------------------------------------------------------------------------------------------------------
2015                                                         870             429              84          14,225
2016                                                         643             314              25          10,405
2017                                                         465             281              30            5818
----------------------------------------------------------------------------------------------------------------

    I have been advised and reminded that there is frequently more than 
one child in a household and/or involved in any emergency call that is 
reported. Thus, the numbers above can be significantly higher, along 
with the many other unreported incidents that occur each day. These 
events have a significant effect on a child's well-being. Over the past 
years our schools have collectively shared information and found 
resources to help make our teachers and staff aware of these incidents 
and the impacts of them on our students. Some of our schools have found 
ways to work with children and families to help students. The BIE does 
not provide therapeutic services and the Indian Health Service, 
unfortunately, is not able to help because its professional staff are 
primarily trained to provide therapeutic services for adults with few 
trained to work with children.
    The influence of ACEs on our students, when coupled with the 
demoralizing effects and health hazards of our crumbling school 
facilities, place our youth at unacceptable risk. Their physical safety 
is compromised by crumbling facilities, their academic achievement is 
compromised by understaffed school faculties, their emotional and 
psychological well-being is compromised by multiple traumatic factors, 
and the list goes on.. In essence, our children face threats to their 
safety and welfare every time that they attend class in one of our six 
tribally operated grant schools. We need to rectify this situation.
    To safeguard our students and protect our next generation, we need 
to address this issue from all sides. We need to provide our youth with 
the support they need to learn well and live full and meaningful lives. 
This means that adequate funding must be provided to support on-
reservation mental and behavioral health services, substance abuse 
intervention, and PSAs to confront social forces like bullying and 
abuse. Moreover, long-term epidemiological studies need to be funded to 
analyze the underlying historical trauma that plagues our people and to 
design and implement appropriate and effective responses to it.
    Due to the level of financial poverty on our Reservation, many of 
our children are covered by Medicaid. Our schools are looking for ways 
to provide therapeutic healing services for our little ones and their 
families. We have learned that many students and tribal members have 
found healing from these experiences. We know that it works. Senators, 
our old healing ways do work and many of us have benefitted from them. 
We need to ensure that our students have the therapeutic services and 
behavioral health treatment and counseling they need, and that these 
services are readily available in our schools. Addressing these 
essential needs of our students will allow them to become better 
learners and provide them the foundation they need to go forth and 
achieve their dreams.
Conclusion
    The Oglala Lakota Nation Education Coalition greatly appreciates 
this opportunity to request support for the many pressing needs from 
our school administrators and school boards of our six tribally 
operated schools. However, we also know many schools from our relatives 
on Turtle Island are not here today to speak for their needs; 
therefore, we respectfully request you to remember them as well as you 
continue your important work.
    Ho hecetu, Pilaunyapi.

    The Chairman. Mr. Lujan.

  STATEMENT OF GARY LUJAN, DIRECTOR, TRUST LAND AND SECURITY, 
                     SANTA FE INDIAN SCHOOL

    Mr. Lujan. [Greeting in native tongue.]
    Good afternoon, Chairman Hoeven, Vice Chairman Udall, and 
members of the Senate Committee on Indian Affairs.
    I bring you tidings and blessing from the State of New 
Mexico and the heart of the 19 Pueblo's homelands. I also 
extend a special greeting to our own Senator, Tom Udall, from 
northern New Mexico.
    My name is Gary Lujan from the Pueblo of Taos, Trust Land 
Management Director for the Santa Fe Indian School, a tribally-
controlled 297 program.
    Taking a moment to reflect on the growing crisis of school 
violence, to date in only 20 weeks, we have already seen 21 
reported school shootings which amounts to about one shooting 
per week.
    Senator Heitkamp, you asked the question, what are we 
doing? Santa Fe Indian School at this juncture, has been taking 
the initiative to use, within its limited resources, which 
drain ISEP funding and not highly able to utilize that 
resource, changing outdated surveillance systems which allow us 
to have a view of our entire campus, 115 acres.
    We are also working to change mass notification systems 
which are greatly outdated which allow us to do drills for 
school lockdowns. Speaking to lockdowns, we have been upgrading 
our emergency operations plans to align with standard response 
protocols utilized by law enforcement agencies nationwide.
    This protocol allows us to effectively train our children 
and our staff for school lockdown drills in knowing what they 
are supposed to do in the event of active shooter situations.
    As we discuss the challenges of providing school safety and 
security for our children, I want to point out five issues of 
concern which are all related and affect school safety. One is 
the fiscal year 2019 proposed budget by DOI which reduces ISEP 
program funding by $2.7 million.
    Two is an overall proposed reduction in the facilities 
operations budget reduction by $5.5 million. In a school 
dependent on additional resources such as the Northern Pueblos 
Agency, the law enforcement jurisdiction for Santa Fe Indian 
School, they have seen a reduction in funding by $10.8 million.
    As we rely on that agency for our law enforcement of 
jurisdiction, they are located 45 miles away from our campus. 
On a good day, the standard response time is 30 to 45 minutes. 
We rely on our school resource officer to be at that location.
    However, because of staff shortages within the Northern 
Pueblos Agency, he is often pulled from his place of duty. 
Throughout each school day at any given time, we do not see our 
SRO for up to four weeks due to shortages elsewhere.
    Speaking to the importance of law enforcement on our 
campus, a program which has greatly affected the partnership we 
have established with Santa Fe Indian School is the Northern 
Pueblos, Taos Butterfly Healing Center. It is a partnership 
which helps us to deal with a restorative justice program which 
helps to move away from punitive approaches, trying to bring 
back and nurture our children, keeping them out of a justice 
pathway.
    Their program is being completely eliminated based on the 
DOI proposed budget to the tune of $497,000 which completely 
eliminates the operations funding. We are extremely dependent 
on this program.
    Additionally, in the justification for fiscal year 2019 at 
Appendix 2-28 of the green book, the bill cites there is safe 
and secure funds for 30 schools. Senators, I ask what of the 
139 under the Bureau's supervision?
    Lastly, I want to point out that though school safety and 
security is an issue based on the active shooter situation, it 
is not only a situation of students getting their hands on guns 
but a mental health issue that is often swept aside while the 
argument of gun control goes forward.
    In closing, I would like to thank you for this opportunity 
to testify before the Committee on a topic critically important 
to us as an institution, to the Pueblo Governors of Northern 
New Mexico and to myself personally as I have children in 
Bureau schools.
    I stand and speak as a parent not only for myself but for 
other parents throughout Indian Country. We ask that you 
continue to pay special attention to this proposed budget as it 
affects us and being able to achieve school safety and 
security.
    I humbly thank you for this opportunity and stand for 
questions.
    [The prepared statement of Mr. Lujan follows:]

 Prepared Statement of Gary Lujan, Director, Trust Land and Security, 
                         Santa Fe Indian School
    Good afternoon Chairman Hoeven, Vice-Chairman, Senator Udall and 
members of the Senate Indian Affairs Committee. I bring you tidings and 
blessings from the State of New Mexico and the heart of the 19 Pueblo's 
homelands. I also extend special greetings to our very own, Senator Tom 
Udall from Northern New Mexico. My name is Gary J. Lujan from the 
Pueblo ofTaos, working as Director of Trust Land Management and 
Security for the Santa Fe Indian School (SFIS).
SFIS on School Safety and Security
    In taking a moment to reflect on the growing crisis of school 
violence: To date in just only 20 weeks, there has already been 21 
reported school shootings: this averages out to more than 1 school 
shooting a week.
    So what is the SFIS doing to safeguard our students? To date, Santa 
Fe Indian School, has invested its own limited resources, not available 
through existing ISEP Program or Facilities Operations funding, to 
replace worn and outdated mass notification alert systems for school 
lockdowns. Additionally, the SFIS has replaced with its means, outdate 
surveillance systems to assist with visual coverage of our campus. 
Additionally, the SFIS has been upgrading our Emergency Operations Plan 
(EOP), which will align with current Standard Response Procedures, 
utilized by law enforcement agencies nationwide. This EOP, also 
provides guidelines for scheduled, school lock down drills, which are 
effectively practiced throughout the school year.
    So as we discuss the topic of ``Protecting the Next Generation: 
Safety and Security at Bureau of Indian Education Schools,'' we must 
look at an additional source of our problem. Chairman and committee 
members, you are well aware, the Department of Interior has released 
the Budget Justifications Report for FY2019 funding for all of Indian 
Country. Within this budge justification are many areas of concern. 
However, as we speak to school safety and security today, I want to 
raise certain issues beginning with the following:

        1.  The overall proposed FY 2019 budget by the DOl. has a 
        reduction in ISEP Program funding by the amount of $2.780.000, 
        yet the Bureau states in their justification, ``The FY2019 
        proposed level allows the BIE, the ability to fund safety 
        operations and support of secure schools.''

        2.  The overall proposed FY 2019 budget by the DOl. has a 
        reduction in Facilities Operations funding by the amount of 
        $5,551.000. again with a justification that states, ``The 
        Education Facilities Operations program abates safety and 
        health deficiencies.'' Chairman, it is increasingly becoming 
        more difficult to address school safety when we are faced with 
        reductions in these areas.

        3.  Through the passage of H.R. 5528 Omnibus Indian Advancement 
        Act (P .L. 1 06-568), the SFIS sits on land held in trust for 
        the 19 Pueblos. The jurisdiction of law enforcement lies with 
        the BIA, Northern Pueblos Agency (NPA) located 45 miles away. 
        While the BIA, NPA has recently added a School Resource Officer 
        to the SFIS, any absence by that SRO means a service call 
        request with a response time of 35--40 minutes, at best. This 
        scenario happens frequently, as the Bureau is largely 
        understaffed, leading to assignments out of districts to cover 
        shortages elsewhere.

            The overall proposed FY 2019 budget by the DOl, has a 
        reduction in Criminal Investigations and Police Services 
        funding by the amount of $10.803.000. Any reduction further 
        adds to officer shortages, leading to vacant SRO positions and 
        our assigned SRO pulled from post at SFIS.

        4.  Equally important to Santa Fe Indian School is the 
        availability of services, such as the Juvenile Detention Center 
        Education program, which helps the SFIS to partner with 
        facilities such as the Eight Northern Pueblos, Taos Butterfly 
        Healing Center. Our partnership is built upon a restorative 
        justice program called the SFIS Partnership for School Success 
        program, which differs from punitive models. Just this week, 
        the SFIS had two senior class students complete this program. 
        With their reintegration into the regular school environment 
        they will complete their education and graduate in less than 
        two weeks.
            As, I speak to the importance of this partnership, the 
        proposed FY 2019 budget by DOl has a program reduction of 
        $497.000 which basically eliminates funding for a program upon 
        which we are dependent.

        5.  The Budget Justifications Report for FY2019 provides in 
        Appendix 2-28, a list of30 Schools having received in S Y 2017-
        2018 funding for Safe and Secure funds. Chairman, Vice-Chair, 
        and Committee, I ask--When will the remaining 139 schools under 
        the BIE be added to this list?

    I have pointed out the reduction of program funding for just a few 
of the programs we rely upon. The SFIS respectfully requests on behalf 
our children that Congress restore funding back to FY2017 1evels.
    Chairman, Vice-Chairman, Committee, though I have provided in 
brief, the importance of funding, as a foundation to addressing the 
safety and security needs of our schools, what we must not forget is 
that gun violence comes to us, not just as an issue of students gaining 
access to guns, but a mental health crisis that is often swept aside, 
while the gun debate becomes the primary argument. The SFIS implores 
the committee to help with additional funding in the areas of mental 
health and education programs that proactively addresses issues such as 
this.
    In closing, I would like to thank you for this opportunity to 
testify before the committee. This topic is critically important as we 
seek for the safety of our students at the Santa Fe Indian School, now, 
and more importantly, into the future. For further information on the 
SFIS and our programs, please refer to additional information provided 
below.
    I humbly thank you for this opportunity,

Historical Perspectives
    1.  In the late 1870s, reformers tried a new experiment--
reservation boarding schools. (Hyer S. 1990)
    2.  Between 1880 and 1902, twenty-five, off-reservation boarding 
schools were built with roughly 10 percent of the total Indian 
population attending these schools. In 1890, the Santa Fe Indian School 
became one of these schools. (Hyer S. 1990)

    The Santa Fe Indian School was originally a product of this era, 
with current advancements thanks to tribal control under the Indian 
Self-Determination Act.

    1.  In 1962, Santa Fe Indian School was relocated to Albuquerque, 
New Mexico and combined with the Albuquerque Indian School (AIS). (Hyer 
S. 1990)
    2.  In 1976, nineteen (19) Tribal Resolutions authorized the All 
Indian Pueblo Council (AIPC) to contract for the operations of AIS, 
under the Indian Self-Determination (P.L. 93-638 of 1975). (Hyer S. 
1990)
    3.  In 1979, as an act of defiance, the AIPC abandoned the unsafe 
Albuquerque facilities, while taking steps to reclaim the Santa Fe 
campus, and eventually relocating back to Santa Fe, New Mexico. (Hyer 
S. 1990)
    4.  In 1988, the Santa Fe Indian School Board, Inc. contracted for 
the operation of the Santa Fe Indian School under P.L. 100-297 Title V, 
part B Tribally Controlled and Operated Grant School, with funding via 
the BIA Schools Programs. (Hyer S. 1990)
    5.  On December 27,2000 a significant event in the history of the 
Santa Fe Indian School came with the passage of H.R. 5528 Omnibus 
Indian Advancement Act (P .L. 1 06-568) signed by President Clinton. 
Known as the ``Santa Fe Indian School Act,'' Congress authorized the 
transfer of the Santa Fe Indian School property into trust to the 19 
Pueblos of New Mexico.

    Over the years, as you can see, the Santa Fe Indian School (SFIS), 
as it currently exists, is not only an educational institution, but an 
institution with land management responsibilities.
Santa Fe Indian School, as an Institution
Educational Operations
    Approximately 700 students attend SFIS in grades 7 through 12, with 
2/3rds of the student population housed in dormitories, while the 
remaining 113 of the student population are transported by school buses 
from the surrounding Pueblo communities.
    The core educational program is funded by the Bureau of Indian 
Affairs delegated to the Bureau of Indian Education within the 
Department of the Interior. Funding under Indian School Equalization 
Program (ISEP) covers the implementation of basic curricular 
requirements. Through the negotiated rule-making process, BIE is 
charged with implementing the federal regulations outlined in the 
Elementary and Secondary School Act (ESEA) reauthorized under President 
George Bush as the No Child Left Behind (NCLB), and subsequently, the 
Every Student Succeeds Act (ESSA), which was signed into law by 
President Obama on December 10, 2015. ISEP funding also provides 
funding for all support services: Information technology, cafeteria, 
security, athletics, and transportation. A decrease funding will impact 
support services.
    Other areas of required services at SFIS that are not adequately 
funded are listed here as reference. Several of these areas have been 
identified as strategic goals within the BIE's most recent strategic 
plan; however, in referencing the Green Book, there is no indication 
that funding will be directly allocated to any of these goals.

        1.  School Safety and Security
        2.  Language and culture curriculum- SFIS applauds BIE's stated 
        strategic goal to increase language and culture in BIE-funded 
        schools; however, BIE needs to increase the weighted student 
        unit (WSU) from .13 to .25. This will increase the amount of 
        resources allocated to funding certified language teachers 
        within BIE schools. BIE also needs to acknowledge that the 
        languages belong to the tribes. Schools only need to provide 
        assurance that students are moving toward student native 
        language growth and speaking.

        3.  Behavioral Mental Health related activities--these are also 
        identified as a BIE strategic goal under Mission Area: 
        Wellness, Behavioral Health, and Safety, therefore, funding to 
        support must be allocated.

        4.  Transportation--The established transportation formula does 
        not cover the costs associated with delivering a full program, 
        as transportation resources are allocated primarily to cover 
        day student transportation.

        5.  Accountability System- BIE must not abdicate the sovereign 
        authority of tribally controlled schools by requiring them to 
        participate in state accountability systems. ``Therefore, SFIS 
        requests the negotiated rule-making committee once again 
        provide resources to address what was previously defined as 
        ``an alternative definition of adequate yearly progress'' for 
        tribes via tribal education departments and tribally controlled 
        schools.

        6.  Career/College Prep--although currently highly supported 
        and assessed (P ARCC), resources do not adequately fund college 
        and career readiness for each student.

        7.  Athletics--research shows that athletics support student 
        academic achievement, increased student attendance, and lower 
        drop-out rates and encourage both physical and mental health; 
        however, transportation to athletic events are not covered as 
        part of the funding formula.

        8.  Facilities Maintenance and Operations--resources must fund 
        at 100 percent of the funding formula.

Santa Fe Indian School under Land Held in Trust
Tribal Sovereignty
    Beyond the efforts in providing quality well-rounded education and 
continued improvement in student services, the Santa Fe Indian School 
also accepts the role as property owner within sovereign lands. This 
has required the development of a department that functions as the 
responsible entity for managing all property within the exterior 
boundaries of the 115 acres. The Trust Land Management Office (TLM 
Office) was created to address numerous trust land management issues. 
This department, allows me to sit before you this day as Director.
    The following is a short list of Santa Fe Indian Schools, Trust 
Land Management responsibilities as a comprehensive approach to 
Sovereignty Protections which are necessary to properly meet the 
mandates ofH.R. 5528, P.L. 106-568.

        1. Law Enforcement & Safety
        2. Tribal or contracted CFR Courts
        3. Water Rights (Litigation and Negotiation)
        4. Realty Property (Trespass, NEPA, Section 106 Compliance)
        5. Roads and Infrastructure

Santa Fe Indian School and Trust Land Management Challenges
    1.  Under P.L. 106-568, H.R. 5528, (SFIS Act) Section 824. Land Use 
(c) Applicability of Laws. The SFIS Act, subjected the 19 Pueblos to 
all laws applicable to Indian Lands; however, the transfer provided no 
funding to meet this mandate. Since that time, the Santa Fe Indian 
School, has been seeking base budget funding so that it can comply with 
this mandate.
References
    Hyer Sally, 1990 (One House, One Voice, One Heart, Native American 
Education at the Santa Fe Indian School), New Mexico Press, ISBN 0-
89013-212-7
Attachment
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Again, I would like to thank all of our 
witnesses.
    We will start with five minute rounds of questioning.
    Mr. Dearman, the Department of the Interior, Office of 
Inspector General's February 18 report found that many BIE 
schools were not completing initial background checks and the 
required five year reinvestigations of BIE employees.
    How is the BIE addressing the incomplete background checks 
and the reinvestigations?
    Mr. Dearman. Thank you, Chairman.
    In the OIG report, OIG concurred with ten of our 
recommendations. Now we have to implement them. We are working 
on the eleventh, information sharing, to make sure we can keep 
track of where our investigations are.
    As we speak, we are currently working with the Interior 
Business Center which is actually a gap analysis of our system 
to see where we can strengthen our weaknesses. We are looking 
to enter a contract with IBC in order to catch up on our 
background investigations.
    The majority of our background investigations we are 
locking onto are the five-year reinvestigations, as you said in 
the opening. We are not waiting and are taking immediate 
action. We are going to utilize IBC to help us get caught up 
and stay caught up while we build our internal capacity.
    The Chairman. What is your timeline?
    Mr. Dearman. After the gap analysis this week, we will be 
able to provide a timeline.
    The Chairman. Do you have an estimate of what that is at 
this point?
    Mr. Dearman. Not at this point, Senator, I don't.
    The Chairman. You will get back to us with that?
    Mr. Dearman. Yes.
    The Chairman. In 2016, the Assistant IG sent a memo to the 
then Acting BIE Director regarding violence prevention at BIE 
schools. That memo stated that in their review, his office 
found no guidance on safety measures from the BIE. Has the BIE 
adopted a set of required safety measures?
    Mr. Dearman. Senator, we have done a lot of work in 
improving our drills and our safety measures at our schools, at 
the school level. Right now, we are collecting that information 
because in the near future, we look to present a closure 
package to the OIG to start closing out the recommendations.
    We have implemented a lot of the recommendations. We want 
to make sure we follow through and follow through to make sure 
they are continuing to be implemented before we submit the 
closure package.
    The Chairman. The President's budget request for fiscal 
year 2019 proposed an $18 billion public lands infrastructure 
fund. This fund could be used to address needed repairs and 
improvements of BIE schools.
    What is the plan for spending these proposed funds on BIE 
schools? How have you determined and developed an accurate and 
current deferred maintenance cost for BIE school facilities?
    Mr. Dearman. Senator, the department looks forward to 
working with Congress in making sure that BIE is included in 
the public lands infrastructure bill. Currently, we have 72 
schools that need to be replaced, 54 listed as in poor 
condition, and 18 are, as Ms. Firethunder said, 50 years or 
older with a large proportion of our students being educated in 
portable buildings.
    We do look forward to working with Congress to make sure 
BIE schools are included in the language.
    The Chairman. Do you have a schedule of schools and 
deferred maintenance?
    Mr. Dearman. We do have a deferred maintenance update. 
Right now, deferred maintenance is at $547 million, $380 
million of that is for buildings, $167 million for grounds and 
$75 million for quarters.
    The Chairman. You do have scheduled itemization and 
prioritization?
    Mr. Dearman. The prioritization is for our schools. We 
definitely want to include our tribes in that because we are 
hearing that loud and clear from our tribes as we go across 
Indian Country. They definitely want to be at the table when 
the priority list is developed.
    The Chairman. Ms. Firethunder, the previously mentioned 
February 18 OIG report suggested there should be more oversight 
of tribally-operated schools. The February 18 report says BIE 
budget and finance does not have clear guidelines regarding 
oversight roles and responsibilities because BIE leadership has 
not created long-term guidance.
    What would you recommend to improve BIE's oversight of 
tribally-operated schools? What more do you recommend that BIE 
do to make our schools and children safer?
    Ms. Firethunder. One of the areas I am quite engaged in is 
the decolonization, a big word. For so many years the Bureau of 
Indian Affairs has taken ownership of our education from A to 
Z.
    When we begin to take leadership at our community level, 
and part of the 638 movement and local control is for our 
schools, elected by the community, school board members, to 
truly understand everything regarding funding for all of our 
facilities from A to Z.
    As we move ahead, we are getting really good at 
communicating what our needs are with the BIA through 
conversations and outside of consultation, and opening up to 
more communication.
    Most important, Senator, our schools have been meeting and 
we know what we need in terms of funding to make up the 
shortfall in facilities. Our recommendation to the BIA is to 
continue to keep open those lines of communication and most of 
all, encourage our local school boards and local tribes to 
communicate more effectively and clearly what we need within 
the BIE.
    The Chairman. Thank you.
    Senator Udall.
    Senator Udall. [Presiding.] Thank you, Chairman Hoeven.
    We all know how important emergency response coordination 
is to ensure unfortunate events do not escalate into tragedies. 
We also know that emergency response coordination in Indian 
Country can be complicated by lack of law enforcement resources 
and intersections of multiple jurisdictions.
    Recently, Senator McCain, several of my other colleagues on 
this Committee, and I spearheaded an effort to address the lack 
of coordination in issuing a timely AMBER Alert in Indian 
Country. We named that legislation after Ashlynne Mike, killed 
on her way to school.
    One of the key pieces of that bill is supporting the 
development of an interdepartmental coordination between 
tribal, local, State and Federal enforcement systems.
    Mr. Lujan, can you describe how law enforcement 
coordination works on your end? You coordinate with the eight 
Northern Pueblos also, correct?
    Mr. Lujan. The Santa Fe Indian School, as mentioned 
earlier, sits on 115 acres of land held in trust within the 
city limits of Santa Fe, New Mexico. Most of our tribes come 
from the surrounding areas of the 19 Pueblos. Jurisdiction, as 
mentioned earlier, is with Northern Pueblos Agency.
    We have been given the gentleman's handshake promise from 
the City of Santa Fe law enforcement that they would respond to 
active shooter situations. However, because of concerns with 
torte, we have extended dialogue with the city and New Mexico 
State police agencies to consider cross-deputization programs 
for the belated responses for shooter incidents on our campus.
    However, the bureaucracy, for lack of a better word, ties 
up the process of being able to get that formalized for Santa 
Fe Indian School and, it is safe to say, a jurisdictional 
response to any Native American tribe not having that cross-
deputization program in place.
    Senator Udall. Thank you for that answer.
    Mr. Dearman, can you describe how the BIE helps schools 
coordinate with Federal, State and local law enforcement 
agencies and how that fits into emergency action plans protocol 
requirements?
    Mr. Dearman. Thank you, Senator.
    Being spread out across 23 different States and dealing 
with multiple tribes, we have so many different levels and 
different involvements at each location depending on local 
resources.
    When I receive an emergency call right now, my initial call 
is to OJS. In return, OJS has connections with law enforcement 
locally with all of our schools. They get involved immediately.
    Our response from OJS has been incredible in my duration as 
director. That is how we get law enforcement involvement. We go 
directly to OJS and OJS reaches out to local law enforcement. 
That is how we coordinate law enforcement at each location.
    Senator Udall. Thank you.
    Mr. Lujan, I know I mentioned in my opening being inspired 
by the students at Santa Fe Indian School and their advocacy 
for school safety reforms. Can you describe the school safety 
advocacy work of Santa Fe Indian School students and what 
reforms and resources they feel are most needed?
    Mr. Lujan. That is a great question, Senator.
    In working with our students at Santa Fe Indian School, 
they have been great participants in being able to ensure that 
we can go through policies and procedures when it comes to 
school lockdown drills.
    They have provided 100 percent response in terms of being 
serious about how we conduct those drills, providing us 
feedback in terms of what works and what does not work, 
especially coming from our staff and the community as a whole 
at Santa Fe Indian School.
    Their advocacy is important to us from the ground level in 
terms of their voice. They have expressed concerns in terms of 
how we implement school safety without infringing on their 
rights to be able to occupy that campus in a normal school 
environment without feeling as if they are in a police state.
    We are working together in dialogue has helped us to 
achieve how we do emergency response in Santa Fe Indian School.
    Senator Udall. Thank you very much.
    Senator Heitkamp.
    Senator Heitkamp. Thank you, thank you and Cecilia, thank 
you for leading once again with your heart. I don't think 
anyone else shares the same concerns for children that I do. 
You have been an amazing leader of your people and also an 
amazing support for the children of your tribe.
    I want to maybe take this in two directions. We know, and 
no one should deny, that we have an incredible job to do in 
improving the quality of Indian education in these schools. It 
has to be done with consultation, with consultation not only 
with tribal elders and tribal leadership, but with the tribal 
children who know best what is going to work and what will not 
work.
    My big concern, and one of the reasons why I pushed this 
hearing, is I do not know what happens tomorrow if someone 
walks into a school at Fort Berthold, Fort Totten or Belcourt 
and engages in heinous, horrible behavior. I know that 
literally law enforcement may be 20 or 30 minutes away.
    I am going to take this in a different direction. I am 
going to start talking about school resource officers and the 
important role they can provide. Mr. Dearman, has BIE ever 
calculated what it would cost the system to support school 
resource officers in every school over which you have 
jurisdiction?
    Mr. Dearman. No, we have not.
    Senator Heitkamp. Have you thought that might be a first 
and most important priority to provide support to these schools 
that desperately need school resource officers?
    Mr. Dearman. I would think that would definitely be a great 
step forward.
    Senator Heitkamp. [Presiding] I think one of the things we 
know sitting on this Committee is, if you spend any time at all 
talking to people in Indian Country, there is not a reservation 
in North Dakota that thinks they have too much law enforcement.
    In fact, we can talk about Standing Rock where I think we 
have enough slots for 16, with only eight filled and they are 
talking about moving out two. It is a little smaller than 3 
million acres but not much. We have to have someone on the 
ready, trained and ready to protect our children.
    All the challenges that walk through the door every day, 
especially the ones Cecilia pointed out, in terms of what 
happens in homes, those problems come into the school and are 
magnified in a school setting.
    I would ask you to calculate what it would take and at 
least run the idea through the budget traps on trying to get a 
school resource officer, not one that comes in and out, not one 
that is called away to do something else, but one who is at the 
school to provide that support day in and day out, just like a 
superintendent or a principal, someone who is going to be there 
to protect kids and provide that connection to law enforcement.
    One thing we found out is when you have a school resource 
officer in the schools, they not only deal with what could turn 
into an escalating, violent situation, but they then become a 
resource for the students to also seek protection from other 
events that are happening.
    I just feel to do our job here, we have to begin to address 
the need for school resource officers and we have to find out 
what the commitment is going to be from this Administration 
going forward to get school resources officers placed in these 
schools.
    Not to put a fine point on it but earlier when I talked 
about Lana DeCoteau, the Turtle Mountain Band of Chippewa have 
been waiting for approval for an MOU to get their school 
resource officer back in the schools. That has been held up. I 
think that is enormously frustrating.
    This was the first thing raised with me when I did a school 
visit about three months ago. Please, pay attention to this. 
None of us want to get that call. None of us want to get that 
call. We want to know we have done everything we can to protect 
these students we have an obligation for.
    Mr. Lujan, you went through a pretty detailed and I think 
damning discussion about budget requests. I think it is time 
that we be honest and say this is what we need and this is what 
is going to cost to get what we need.
    I think every person involved in the education system feels 
the days of making do with what we get are done. It is done. We 
need to know what we need and need to figure out how to do it 
because if ever there was a group of children in America who 
deserve the attention, it is Native American and indigenous 
children.
    Thank you for your testimony and thank you for what you are 
saying. Let us figure out what we need to protect and educate 
children and build a future for Indian people in this Country. 
It starts right here in these schools and in the families.
    Ms. Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you.
    Let me associate myself with Senator Heitkamp's comments, 
because I agree. This is too important. We have to get it 
right. It does not start with under-funding. We are already 
playing catch-up. It is absolutely outrageous to me that we are 
still looking to cut resources where they are so desperately 
needed.
    Director Dearman, we have talked about this. I know that is 
not where you want to be. You would love to have the resources 
you need but we have to fight for these resources. Let me ask 
you this. The BIE has a school safety office but it is not 
fully staffed, is that correct? My understanding is there are 
three of seven staff positions in that office that are filled 
and the rest are not.
    Mr. Dearman. Yes, six of seven now.
    Senator Cortez Masto. Six of seven are filled?
    Mr. Dearman. Yes.
    Senator Cortez Masto. Good. Can you also clarify this for 
me? I understand there are a total of 183 BIE schools but I 
have another document showing there are 169 BIE schools. How 
many total schools are there?
    Mr. Dearman. There are 183 schools in residential settings 
within our system.
    Senator Cortez Masto. How many are tribally-operated?
    Mr. Dearman. One hundred thirty.
    Senator Cortez Masto. The intersection between what you do 
and working with the tribes is going to be key. I think we have 
to figure out a different way of doing business because the old 
way is not working. It just is not.
    Now we need innovation and we need to think outside of the 
box. That is why I like Senator Heitkamp's idea, let us figure 
this out, let us think about how we can address this issue, and 
make sure our kids are safe.
    One of the things we should be doing is reaching out to the 
tribes, sitting around and having conversations, not only with 
them but with the students. When is the last time you actually 
had a conversation with students and talked about the safety 
they feel in their schools and what their needs are in their 
schools? I am curious.
    Mr. Dearman. A couple weeks ago, we were at Chemawa Indian 
School and met with a large student body.
    Senator Cortez Masto. What did they tell you they needed 
for their school safety purposes?
    Mr. Dearman. They really talked more about their future 
goals and what Chemawa has meant to them. As far as school 
security, it really was not a topic of discussion.
    Senator Cortez Masto. You have not had that conversation 
with them yet?
    Mr. Dearman. No, not lately.
    Senator Cortez Masto. I think we need to be listening. If 
we have schools that are falling down, there is a maintenance 
backlog. What is the deferred maintenance backlog total?
    Mr. Dearman. $547 million.
    Senator Cortez Masto. That is outrageous. There is no way 
we can play catch-up and then put a new system in place at the 
same time. We have to be fighting for all of it.
    I know I do not have a lot of time here, but let me say, as 
somebody who has spent a career in law enforcement and fighting 
to protect our communities, including our kids, this is key. I 
just came from Nevada having this same conversation with 
students on how we can look to fight and make sure schools are 
secure and safe.
    Not only that, the governor of my State has pulled together 
a safety group, a group of school safety stakeholders, to 
figure out what we can do in the State of Nevada. That is what 
you need to be doing. Literally what you need to be doing with 
our Indian schools is making sure we are reaching out and 
listening to them.
    My goal is to make sure that you have the tools you need 
for breaking down barriers and you are doing the assessment you 
think is appropriate. I know you know what is appropriate 
because you come from that background.
    I am curious. As you tackle this problem, what are the 
priorities you foresee moving forward that are immediate, that 
you need information on before you can move forward and do what 
you think is right?
    Mr. Dearman. Thank you, Senator.
    I heard loud and clear from both you and Senator Heitkamp, 
we need data. We have really started collecting the data. You 
heard me mention our strategic plan in my written testimony.
    We brought that from the field to tribes to D.C. We did not 
push that out of D.C. to the field. I am really proud we have 
taken that to Indian Country where we have been listening to 
the priorities of our tribes. That will set our direction 
within the next five years.
    Working in tribal consultation, we had three listening 
sessions and five consultations. We have identified six 
priorities. Behavioral health and school safety is one of the 
six priorities.
    We have started going out there and engaging tribes because 
BIE sees it that our job is to work hand-in-hand with the 
tribes. That is the only way we will get where we need to with 
our students.
    I will say that I just came back from JKL Bahweting in 
Sault Ste. Marie. That is a 297 school operated by Sault Ste. 
Marie. Their security was amazing. They have red lights that go 
off in all the classrooms. They have door stops immediately 
when they run their drills. They have an SRO provided by tribal 
police.
    We have some tribes that are doing some great things. There 
are things where we can share best practices across the system.
    Senator Cortez Masto. I am glad you said that because you 
do not have to recreate the wheel. You don't have to look only 
to tribal communities. You can look to school districts in 
those communities as well to learn.
    Let me ask you, as part of your strategic plan, are you 
also asking for more funding to support your strategic plan?
    Mr. Dearman. That is not part of the strategic plan.
    Senator Cortez Masto. I suggest it should be.
    Thank you.
    Senator Heitkamp. I think we will recess because we have to 
go vote. Then everyone will come back. Please stay in place for 
a little bit and we will be back.
    [Recess.]
    The Chairman. [Presiding.] We will resume the hearing. 
Thank you for your patience.
    We will turn to Senator Heitkamp.
    Senator Heitkamp. Thank you so much.
    Mr. Dearman, I want to maybe walk through some of the steps 
you are going to take in the next couple months.
    We talked a lot about arranging law enforcement response 
that looks like a broader response than just relying on tribal 
and BIA police. I am wondering how we can better support 
memoranda of understanding for immediate response within 
communities where you have multiple jurisdictions? Who do we 
need to bring in from the Department of Justice to help make 
that happen?
    Mr. Dearman. I am just trying to think of all the scenarios 
we have. We definitely need to involve OJS and tribal police.
    Senator Heitkamp. For the record, can you tell people what 
OJS is?
    Mr. Dearman. The Office of Justice Services. They have been 
fantastic about helping us coordinate with local tribal police, 
sheriff departments, and whatever law enforcement has 
jurisdiction over our schools. I would definitely say we need 
that involvement.
    Senator Heitkamp. I do not think it is always clear who has 
jurisdiction. We have an Indian school within the boundaries of 
Wahpeton. When I was attorney general, we spent a lot of time 
trying to figure that out.
    There had been reports of child abuse at the school. We 
spent more time than we should have trying to figure who had 
jurisdiction over that school and who could come in and do an 
investigation.
    Eventually, the Office of the Attorney General did it just 
because no one else was stepping up. I do not know that we ever 
resolved the jurisdictional issues.
    In response to Senator Cortez Masto, I think you said you 
had 183 schools. Do you know exactly who has primacy and who 
has jurisdiction in each one of those schools and do we know 
what the response time is in each one of those schools for 
which you have responsibility?
    Mr. Dearman. The first step would actually be to establish 
who has jurisdiction because I think that will be critical. 
That would be the first step in dealing with all our schools. I 
am sorry I went blank on the other part of your question.
    Senator Heitkamp. The other part of the question is will 
you make a commitment to us that for each one of the schools 
for which we have obligations, we are going to get an answer on 
who has jurisdiction, the current status of relationships in 
law enforcement for an active shooter response, and what steps 
we need to take in order to make sure we have a response to an 
active shooter?
    Mr. Dearman. Yes. We have actually started the conversation 
because we know OJS has jurisdiction in eight States. We have a 
list of where we have school resource officers in our schools 
provided by OJS.
    Senator Heitkamp. After we get to the discussion about 
jurisdiction, we need to know capacity. Mr. Lujan said tribal 
law enforcement is 45 minutes away. In many of the schools we 
have, law enforcement may be hours away.
    If you look at Mandaree, for instance, which is on the 
other side of New Town separated by a very large lake, what is 
the response time in Mandaree, New Town, Belcourt and Dunseith? 
Those are the answers I need. I do not think we can get that 
answer until we examine each individual school.
    I will tell you that you will find, if we take this out of 
a school context and take it as a hostage or domestic violence 
situation in a home, that response time has the same problem. 
When you do this work, we will discover we do not have enough 
law enforcement or enough boots on the ground to actually 
protect our citizens, but we have a unique and special 
obligation to protect kids in our schools.
    How soon do you think you could get a full report on every 
one of the schools, who has jurisdiction and what the response 
time would be?
    Mr. Dearman. We can provide a timeline once we get back to 
the office and discuss with OJS what we are looking at.
    Senator Heitkamp. I just do not want to be in that 
situation where I get a call and we find there is an active 
shooter and confusion about who has jurisdiction and who will 
have primary response.
    Mr. Dearman. Senator, from my experience at one of the 
schools I supervised where my wife teaches and my daughter 
attends school, we worked with OJS. We had a memorandum of 
agreement that if there was a school shooting, the local police 
department, the sheriff's department, the Oklahoma Highway 
Patrol, all would respond. Those are the kind of MOAs we need 
at all of our locations.
    We also went a step further and opened our building to 
where they would come in and do active shooter drills where our 
teachers could see what was happening. That helped OJS become 
familiar with our facilities.
    Senator Heitkamp. I do not want to belabor the point but I 
do want to put an exclamation point on there are two issues. 
One is resourcing schools so that we are dealing with 
behavioral and mental health issues.
    One of the tragic things you discussed, Mr. Lujan, was 
elimination of the Butterfly Program. Here is something that is 
going to help change things long term for which funding will no 
longer be made available.
    The reason this is a unique hearing on the Bureau of Indian 
Education is that I want to know about emergency response. I 
think we all are well familiar with the challenges of Indian 
education and resourcing plants, equipment, operation, 
maintenance, transportation, workforce development, teachers, 
and technology. I could go down the line. I could go on and on 
and on. We know those.
    This hearing has been called today to try and figure out 
school security. My particular interest is emergency response. 
I need to know who we can count on and who we can hold 
accountable if something happens where there is not appropriate 
emergency response.
    Thank you.
    Senator Udall. [Presiding.] You can continue. I do have 
questions and I think Senator Cortez Masto will return but if 
you have anything else?
    Senator Heitkamp. I think Senator Smith was planning on 
returning also.
    I have probably more of a statement. It goes to the work we 
all do. It is about kind of out of sight out of mind. Something 
like Parkland happens and there is heightened awareness of the 
challenges. We get calls from schools saying we are in lock 
down or we have been threatened. It is what I call the risk of 
the issue du jour.
    Today, it is in the news and therefore, it is an issue. 
Then, after it somehow finds its way out of the 24-hour news 
cycle, we close the books and do not think about it again until 
the next thing happens.
    We cannot let that happen. This needs to be systemic and 
ongoing. I applaud the work you are doing already in 
identifying those strategic areas. Obviously they need to be 
resourced, as Senator Cortez Masto said, but we absolutely have 
an obligation, first and foremost, for public safety.
    The lack of resource officers and emergency response in the 
event of an incident in a Native American school is only 
reflective of the lack of a law enforcement presence at large 
in Indian Country.
    As a result, we have seen an incredible growth in the 
trafficking in drugs and human beings, theft and exploitation, 
and extortion. In the case of North Dakota, you have families 
who may have minerals and are threatened. When there is no cop 
on the beat, there is no protection.
    We absolutely need to get a cop on the beat. We need to 
resource in Indian Country the same way we would resource any 
county in my State. That means we need to work with the tribal 
authorities and get the law enforcement presence we need to 
protect Indian people.
    That will go a long way toward creating a foundation for 
growth in education opportunities. If people are not protected, 
it is awfully hard to learn. You know that. I look forward to 
working with all of you in the future on this very important 
issue and on Indian education altogether.
    Thank you, Mr. Vice Chairman.
    Senator Udall. Thank you so much, Senator Heitkamp.
    Mr. Dearman, when DOI testified at this Committee's 2010 
oversight hearing on school safety and security, the Assistant 
Secretary for Indian Affairs highlighted the department's 
efforts to convene an interdepartmental school safety summit. 
Has BIE continued any of its interdepartmental coordination 
efforts from 2010?
    Mr. Dearman. Vice Chairman, not to my knowledge, no.
    Senator Udall. More recently, President Trump and Secretary 
DeVos announced the formation of a Federal Commission on School 
Safety. Mr. Dearman, is the BIE a part of Secretary DeVos's 
commission?
    Mr. Dearman. No, sir, not as of right now. We do have 
regular communication and meet with the Department of 
Education. We will be bringing that up to see if we become a 
member of that.
    Senator Udall. Yes, I would think it would be very 
important for Native students and the Bureau of Indian 
Education and the whole thing to be at the table because you 
may hear discussions of things and where there may be 
resources, or help you can get from agencies that they know 
your voice is out there.
    Let us know if you have any problem with that. We will try 
to stir it up a bit but it should easily be something they 
should do and allow you to be on that. BIE should be a part of 
the Federal Commission on School Safety.
    Both of the tribal witnesses here today spoke about the 
need for more resources. Mr. Lujan and Ms. Firethunder, do you 
think BIE does a good enough job leveraging Federal school 
security resources from outside of DOI and if not, what more 
would you like to see them do?
    Mr. Lujan. Thank you, Senator, for that question.
    You mentioned a very important opportunity through the 
Trump Administration for school safety. I believe in 
partnership with the tribes, the schools and the BIE, we can 
work together try to access those resources.
    I believe it is through partnership and communication. We 
are boots on the ground. We know where we are lacking, we know 
what resources we are taking from our students to address 
safety rather than putting it into the classroom. I think 
together through dialogue we can achieve success in that area.
    Senator Udall. Great. Thank you.
    Cecilia.
    Ms. Firethunder. Thank you very much.
    One of the things I really appreciate about my team on the 
Pine Ridge Reservation is we meet monthly, analyze our data, 
and put together graphs to really take a hard look at where the 
shortfalls are.
    Unfortunately, many times the BIA does not ask for the 
necessary resources it needs to operate. We are hoping we are 
able to influence even more people to show we are engaged in 
understanding where the money comes from and where it is going.
    The outside resource, of course, is in writing grants for 
other departments within the government to enhance what we are 
doing, especially in behavioral health and how we can bring in 
those resources.
    We have gotten really good at it. One of our schools has a 
fiscal agent and if we get a grant, we share that with all of 
the other schools to provide behavioral health services. We 
have so much to do and for us, it is always about the budget. 
We feel very strongly that the Bureau of Indian Affairs needs 
to ask for what it needs. We can show time and time again 
research we have done.
    Let me leave with you a piece, ``The Assistant Secretary of 
Indian Affairs shall arrange for full funding for operation and 
maintenance of contract schools by fiscal year 1981.'' It has 
not happened.
    Hopefully with our activism, participation and 
understanding of how these things get done, we can partner with 
Mr. Lujan and other schools and really influence Congress to 
give us those dollars by treaty and our special relationship 
with this government to make sure those resources come to our 
community. That is our job and responsibility.
    We appreciate being here today. At least I do. Thank you.
    Senator Udall. We really appreciate that comment. We are 
working to try to make exactly what you discussed happen. Thank 
you for that comment.
    Mr. Dearman, Chairman Hoeven asked about your current work 
to address OIG's recommendations. My staff found about 50 
recommendations issued since 2008. It appears that at least 13 
of those recommendations, including some from as far back as 
2008 and 2014 are still open.
    Do you agree with GAO's findings that at least 13 OIG 
recommendations are outstanding?
    Mr. Dearman. Senator, in my first year as the director, we 
have been going back to clean up a lot of things left undone. 
As I stated in my written testimony, we neglected GAO and OIG 
reports for too long. We are addressing every one of them.
    I can assure you that if it is outstanding, we will address 
it as quickly as possible. If need be, we will arrange a 
meeting with OIG, as we had with GAO, because we feel, as I 
testified before, their recommendations will only make us 
stronger and better to take care of our kids. If we come across 
open OIG recommendations where we need to sit down with OIG, we 
will definitely be scheduling that meeting.
    Senator Udall. They indicated to us there are 13. If you 
cannot identify those 13, you should get with them and find out 
what those 13 are so you can deal with them in the way you just 
talked about.
    In this Congress, we have redoubled our BIE oversight 
efforts, holding two hearings already on the Bureau being 
listed on GAO's high risk list. Chairman Hoeven and I are 
working to schedule a third high risk hearing next month.
    Mr. Dearman, can I get your commitment to prepare a full 
review of BIE's unresolved OIG recommendations before that 
hearing?
    Mr. Dearman. Yes, sir.
    Senator Udall. Thank you very much.
    I was going to ask about an earlier letter but my 
understanding is you couriered something up here and we 
appreciate that.
    Let me thank all of the witnesses today. This is a 
tremendously important subject for Indian Country, having our 
schools be safe and having kids feel safe in schools. Kids 
cannot learn unless they feel safe. This is an important 
subject and we appreciate the tribal input and the Director of 
the BIE's input on this issue.
    If there are no more questions for today, members may also 
submit follow-up, written questions for the record. We would 
hope you would give timely answers to those. The hearing record 
will remain open for two weeks.
    I want to thank the witnesses for their time and testimony.
    This hearing is adjourned.
    [Whereupon, at 4:25 p.m., the Committee was adjourned.]

                            A P P E N D I X

 Prepared Statement of Hon. Troy Scott Weston, President, Oglala Sioux 
                                 Tribe
    Dear Chairman Hoeven, Vice Chairman Udall, and Members of the 
Committee,
    I am writing to you today on behalf of the Oglala Sioux Tribe to 
submit comments for the record regarding the Senate Committee on Indian 
Affairs oversight hearing on ``Protecting the Next Generation: Safety 
and Security at Bureau of Indian Education Schools'' held on May 16, 
2018. Our Tribe is located on the Pine Ridge Reservation--home to over 
6,000 K-12 students in seven BIE system schools, four county-run public 
schools, two parochial schools, and eleven Head Start centers. The 
provision of high quality education in structurally sound learning 
environments is essential to our students' long-term achievement. 
Addressing school safety and security concerns in our community is, 
thus, a priority for both our children and our Tribe.
    Students on the Pine Ridge Reservation must overcome a host of 
barriers that prevent them from accessing quality educational services. 
Our Tribe is disproportionately affected by poverty, unemployment, high 
rates of crime, overcrowded housing, limited and rundown transportation 
networks, and high rates of chronic disease. These burdens are carried 
into the classroom, where they are strongly correlated with the 
development of complex behavioral and mental health issues that affect 
the ability of our students to focus on and engage in learning 
activities. Dilapidated classrooms, hazardous environmental factors--
such as asbestos, water damage, and mold--and crumbling recreational 
facilities further weigh on our students. Unsafe and derelict 
facilities send a subliminal message to our students that their 
education and well-being is not valued.
    Yet this could not be further from the truth. Our students form the 
heart of our community. Our students have an immense potential to 
succeed. They just need the appropriate level of resources and support. 
Our students represent hope for our Tribe's future. At present, 
however, neither the Tribe nor the BIE has the necessary resources to 
address our students' unmet needs and provide them with a secure space 
to learn.
    As you are aware, the Oglala Sioux Tribe and other Tribal Nations 
in the Great Plains are on the frontlines of an unprecedented battle 
against violent crime, drug trafficking, and other criminal activity. 
Tragically, our law enforcement officers and tribal justice systems are 
unable to effectively respond to the crises due to severe understaffing 
and insufficient resources, facilities, and funding. Due to financial 
constraints, we are currently operating well below the bare minimum 
number of patrol officers needed to effectively serve our community. 
Because of chronic under-resourcing and unreliable tribal road 
maintenance, emergency response time is deplorable. Were an active 
shooter situation or other emergency to take place in one of our 
schools, it is uncertain when tribal law enforcement could reasonably 
be expected to arrive.
    The security infrastructure of our BIE system schools is similarly 
lacking. All of our schools need upgraded safety and security measures, 
including metal detectors, emergency protocols, and video surveillance 
systems. School safety must also take into account the behavioral and 
mental health needs of our students. On Pine Ridge, as in many tribal 
communities nationwide, behavioral health specialists are rare. Our 
students must often wait extended periods for an appointment. In the 
interim, students must suffer through behavioral or mental health 
crises without formal support--placing both themselves and the greater 
student body at risk. We need increased and adequate funding for in-
school behavioral and mental health services, among other student 
support resources.
    Support for tribal law enforcement and support for BIE school 
safety go hand-in-hand. One will necessarily fall short without the 
other. Both are critically important to student success. We, thus, urge 
Congress to provide increased support for BIE school safety and 
security measures--including facilities maintenance and operations 
funding--and tribal law enforcement activities.
    Thank you for the opportunity to submit comments for the record on 
this critically important topic. The oversight hearing provided a 
strong foundation on which to assess school safety needs and identify 
concrete ways to address unmet needs. With adequately funded and 
culturally appropriate models of education, BIE system schools on the 
Pine Ridge Reservation could provide the security and academic 
resources needed to ensure our children have access to the promising 
futures they deserve. We look forward to working with you, your staff, 
and the BIE to make their bright futures a reality.
                                 ______
                                 
   Prepared Statement of Jon Whirlwind Horse, President, Dakota Area 
                      Consortium of Treaty Schools
Introduction
    Chairman Hoeven, Vice Chairman Udall, and members of the Committee, 
I am Jon Whirlwind Horse, and I am an enrolled member of the Oglala 
Lakota (Sioux) Tribe and President of the Dakota Area Consortium of 
Treaty Schools (DACTS), a non-profit organization headquartered in 
Manderson, South Dakota.
    There are fifteen federally-recognized Indian tribes from Nebraska, 
North Dakota and South Dakota represented by DACTS schools: Oglala 
Sioux, Omaha Nation, Santee Sioux, Winnebago, Spirit Lake Sioux, Turtle 
Mountain Chippewa, Mandan, Hidatsa and Arikara Nation, Standing Rock 
Sioux, Cheyenne River Sioux, Rosebud Sioux, Yankton Sioux, Crow Creek, 
Lower Brule Sioux, Flandreau Santee Sioux, and the Sisseton Wahpeton 
Sioux.
    Since 1994, DACTS has advocated before authorizing and 
appropriations committees in Congress as well as across the federal 
agencies for what we thought would be a universally-popular goal: 
quality school facilities for our American Indian students in the 183 
schools funded and managed by the Bureau of Indian Education (BIE).
    As most members of this Committee know, the conditions of school 
facilities on most Indian reservations make getting a quality education 
extremely difficult for our Indian children. Leaky roofs, poor HVAC, 
and shabby construction make life in the extreme dry heat of fall and 
the cold, harsh winters on the Plains difficult. Add to these 
challenges a lack of computers and other equipment, and it makes 
learning hard indeed.
    As explained below, our path has been more frustrating than 
fruitful and, while we have enlisted champions from both political 
parties, the results have been disgraceful.
    On behalf of DACTS, I submit this prepared statement for the 
hearing record as the Committee examines issues related to Indian 
education and the school facilities where we expect our Indian children 
to achieve the kind of education that will serve them well in a 
competitive world.
History of Federal Funding for Indian School Construction, Repairs and 
        Maintenance
    Over the past quarter century, the executive and legislative 
branches have at times made serious efforts to get new school 
facilities built by appropriating additional funds to the Department of 
the Interior.
    From fiscal years 2001 to 2017, $2.8 billion was appropriated for 
replacement school construction and facilities improvement and repair 
as follows:
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Background and History of the School Construction Bond Concept
    While we were grateful to the congressional champions of these 
efforts, according to the fiscal year 2019 Bureau of Indian Affairs' 
``Green Book,'' an estimated $2 billion is still needed to replace all 
the facilities that need replacement.
    Over this same period, DACTS proposed a creative way to finance 
more new school construction in a much faster way for BIE-managed 
schools: the issuance by Indian tribes of construction bonds to raise 
capital and, in turn, use the funds to build new schools. Unlike 
traditional public bond financing, the purchasers of these bonds would 
receive tax credits in lieu of interest which they would use to offset 
taxes from income, much like the Qualified School Construction Bond 
(QSCB) and the Qualified Zone Academy Bond (QZAB) programs which assist 
states and school districts in modernizing aging schools. But unlike 
QSCBs and QZABs, the principal payments for the bonds would come from 
an escrow account, created through federal legislation, and funded 
through both public and private means.
    The bonding option provided an elegant--and an already authorized--
option to begin to fulfill the federal obligation to Indian tribes and 
their members.
Congressional Support for School Construction Bonds
    In the early 2000s, a bi-partisan group of Senators--Thad Cochran 
and Patty Murray and former Senators Ben Nighthorse Campbell, Tim 
Johnson and Tom Daschle--introduced legislation to authorize the 
establishment of the bonding mechanism. While these bills were not 
enacted, they laid the groundwork for the passage of the American 
Recovery and Reinvestment Act of 2009 (ARRA).
    The ARRA authorized Indian tribal governments to issue $400 million 
in QSCBs ($200 million for 2009 and $200 million for 2010). The one 
thing the ARRA did not include was an escrow account which would hold 
the proceeds used to repay principal once the bonds were issued.
    DACTS labored in vain with the Obama Administration, this 
Committee, and other committees to get the escrow account established. 
Our efforts failed and we have now been informed that as part of the 
``tax reform'' component of the ``Tax Cuts and Jobs Act of 2018,'' the 
Indian school construction bond tax credits have been eliminated from 
the Internal Revenue Code.
Secretary Zinke's ``Public Lands Infrastructure Fund''
    Indian people are nothing if not resilient and ever-hopeful that 
the United States government will honor the commitments it has made to 
our communities for hundreds of years.
    As part of the fiscal year 2019 budget request for the Department 
of the Interior, the President has proposed the creation of the 
``Public Lands Infrastructure Fund'' (Fund) to fully satisfy the 
deferred maintenance and new construction needs for the physical 
infrastructure under the purview of the National Park Service, in our 
national wildlife refuges, and in BIE schools.
    The Fund would be established in the Department of the Treasury and 
would be endowed with fresh revenue generated through renewable and 
non-renewable energy development on federal lands. In the budget 
request, it is estimated that the Fund would generate $6.8 billion in 
new revenue over 10 years, and up to $18 billion in funding over the 
life of the Fund.
Conclusion
    Thank you for the opportunity to submit this prepared statement. If 
you have any questions, I would be happy to answer them.
                                 ______
                                 
Prepared Statement of Hon. Robert Flying Hawk, Chairman, Yankton Sioux 
                                 Tribe
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                              Tony Dearman
    Question 1. Mr. Dearman, would you agree that the abysmal physical 
surroundings at BIE schools hurt, not help, students who are already 
struggling with depression and suicidal thoughts?
    Answer. A healthy and safe classroom environment is critical to 
supporting the holistic needs of BIB students. In the FY 2018 Omnibus 
spending package, Congress funded the BIA and BIB at $3.1 billion--an 
increase of $204 million above the FY 2017 enacted level. This included 
$129 million in infrastructure increases for schools and law 
enforcement. Through this funding, Indian Affairs is working to address 
the current backlog in school construction and maintenance as well as 
provide local technical assistance to increase school safety.
    At the end of the second quarter of FY 2018, total deferred 
maintenance for education facilities was $54 7 million, including $380 
million for buildings and $167 million for grounds. Deferred 
maintenance for education quarters was roughly $75 million. In total, 
there are 72 replacement eligible schools--54 eligible due to poor 
condition and 18 eligible due to school age. and proportion of students 
in portable units. This is in addition to the ten schools on the 2016 
No Child Left Behind (NCLB) Replacement Schools list and the three 
previously funded schools from the 2004 NCLB replacement schools list.
    The President's FY 2019 Budget request includes a legislative 
proposal to create a Public Lands Infrastructure Fund, which would help 
pay for repairs and improvements in national parks, national wildlife 
refuges, and BIB-funded schools. As the U.S. Department of the Interior 
works to expand its energy program on federal lands and waters, this 
initiative has the potential to generate much-needed infrastructure and 
maintenance funding that can better support the varying needs of BIE 
students.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Heidi Heitkamp to 
                              Tony Dearman
Law Enforcement
    Question 1. Does BIE require all BIE schools to have emergency 
response plans in place, including for active shooter situations? If 
not, why? Does BIE require that each BIE schools have a certain base 
level of physical safety mechanisms in place (i.e. automatic door 
locks, security cameras, etc.)? H not, why?
    Answer. To ensure the welfare and safety of students and staff at 
BIE-funded schools, BIE utilizes safety personnel to provide national 
protocols and guidance throughout the BIE school system uniformly in 
reference to issues that are national in scope. BIE most recently 
updated its All Academic Staff Training and Preparedness guidance on 
January 12, 2018 and provided it to schools through BIE Education 
Program Administrators who work directly with school leaders. The form 
lists mandatory and recommended training and provides checklists for 
school leaders to plan and complete such training, including Emergency 
Management Plan and Procedures.
    BIE safety personnel provide information in a similar manner to 
both tribally controlled and Bureau-operated schools. However, levels 
of autonomy differ among tribally controlled and Bureau-operated 
schools. Bureau-operated schools are required to follow all national 
BIE policy memoranda, whereas tribally controlled schools have the 
authority to create their own school policies and procedures, pursuant 
to any applicable law(s). Since the majority of BIE-funded schools are 
directly managed by tribes or locally controlled school boards, the 
BIE's ability to oversee the implementation of safety policies is 
limited by their autonomy. However, the BIE does review grant 
assurances to ensure tribally controlled schools follow statutory and 
regulatory defined minimum requirements regarding necessary procedures 
for background checks as well as other safety measures.

    Question 2. Does BIE provide technical and direct assistance to BIE 
schools in developing and implementing schools safety plans?
    Answer. As BIE works to improve security at its schools, the agency 
is focusing much-needed support on improving threat assessments, 
protocols and procedures as well as increasing access to guidance 
information for preventing and responding to instances of school 
violence. The BIE utilizes its School Safety Specialist to collaborate 
with key BIE staff in providing safety supports directly to BIE-funded 
schools. The BIE is working to improve its safety procedures by 
providing schools and staff guidance on pertinent mandatory and 
recommended training to ensure safety is the highest priority at BIE-
funded schools and school safety plans are in place. The BIE is also 
refocusing efforts to provide support and technical assistance to 
improve safety procedures via six regional BIE summer training for all 
employees, including school-level personnel.

    Question 3. Does BIE collaborate with BIA, other relevant federal 
agencies, and state and local law enforcement on emergency response 
planning for BIE schools (including for active shooter situations)? If 
not, why? If so, please explain what those efforts look like and 
whether or not best practices are being developed and disseminated 
amongst BIE schools?
    Answer. The BIE actively collaborates with the BIA's Office of 
Justice Services (OJS) as well as local and tribal law enforcement to 
improve safety in BIE-funded schools. Schools also contract with local 
private security firms and establish memoranda of understanding with 
local law enforcement agencies in order to take the burden off school 
staff in conducting detailed surveys, identifying safety and security 
deficiencies, and implementing corrective action plans and emergency 
response plans. During the 2017-2018 School Year, approximately $1.8 
million in Safe and Secure Schools funding assisted in school safety 
audits and provided onsite School Resource Officers (SROs) that are 
hired and supervised by BIA OJS. BIE is working with OJS to determine 
how it can optimize the number of available SROs in BIE-funded schools 
to increase support in high-need areas.
    In addition to OJS providing SROs, OJS provides training and other 
direct law enforcement safety services to BIE-funded schools, 
including:

  <bullet> Gang Resistance Education and Training (GREAT);
  <bullet> Drug Abuse Resistance Education (DARE); and
  <bullet> Alert Lockdown Inform Counter Evacuate (ALICE) active 
        shooter response.

Deferred Maintenance
    Question 1. Given the current backlog in school construction and 
maintenance, how does BIE prioritize the allocation of funds and the 
replacement of school facilities? Within the $18 billion under the 
proposed Public Lands Infrastructure Fund in the president's, how much 
would be allocated to repair or replace BIE schools?
    Answer. Indian Affairs is currently working to construct those 
schools from the 2004 NCLB replacement schools index, including 
Beatrice Rafferty, Cove Day, and Little Singer Day School. 
Additionally, in September 2018, Indian Affairs announced $74.2 million 
in funding for design-build contracts would be directed to two schools 
on the 2016 NCLB Replacement Schools list--Blackwater Community School 
and the Quileute Tribal School. Eight schools remain on the 2016 NCLB 
Replacement Schools list and will be constructed pending availability 
of appropriations. As schools complete their planning phase 
requirements, they establish their position on the replacement priority 
list. Additionally, as the U.S. Department of the Interior works with 
Congress to expand its energy program on federal lands and waters, this 
initiative has the potential to generate much-needed infrastructure and 
maintenance funding.

    Question 2. I'd like to bring your attention to the condition of 
the Tate Topa Schools on the Spirit Lake Reservation. The School site 
is shared by BIE and the public school and the BIE has a mix of 
ownership over the school facilities. My understanding is that because 
of this mixed ownership, BIE has been unhelpful with basic maintenance 
and addressing other issues with the building, and the school district 
purchase equipment like metal detectors and cameras themselves since 
the BIE will not cover it. Will you look at the issues the schools is 
having in working with BIE and work to improve that relationship so the 
school building is adequately maintained?
    Answer. In 1982, the Department constructed a new school to replace 
a formerly BIA-operated K- 6 school. Indian Affairs continued to 
provide an academic program for K-6 only. The Fort Totten Public School 
District #30 provided the academic program for grades 7-12, under a 
cooperative school agreement. Subsequently, the Spirit Lake Tribe 
contracted the BIA funded school, under Congressional authority to 
convert to a PL 100-297 tribal grant school to provide academic 
programs to grades 7 and 8. During this time, the Tate Topa (Four 
Winds) School Board allowed the public school to occupy a portion of 
the school facilities via a written agreement. Indian Affairs was not a 
signatory party to the shared facility use agreements after the Tribe 
began to administer the education program in 1989. The Spirit Lake 
Tribe financed with tribal economic development funds a $2.5 million, 
22,000 square foot addition to house grades 6-8 that was completed on 
March 18, 2002.
    Currently, the BIE-funded school is the principal entity housed in 
the current school facilities. The Fort Totten Public School District 
#30 high school program utilizes the school's federal facilities 
without a lease or payment in support of using or maintaining the 
facilities and programs/services. Per this request, the BIE will 
follow-up on developments to-date and work with the BIA to analyze the 
possibility of an established written Memorandum of Agreement that 
ensures that federal funding is used to the extent possible for the 
repairs and maintenance while collaborating with the public school to 
address a proportionate share of costs for facilities and services. 
Following the determination, BIE will contact the appropriate local-
level personnel to discuss paths forward for properly maintaining the 
school's facilities.
Safetv Monitoring and Reporting
    Question 1. BIE schools document incidents of school violence and 
threats by entering data into the Native American Student Information 
System (NASIS). Does BIE have any way to ensure that school employees 
always enter this information when there is an incident?
    Answer. BIE recently increased its focus on professional 
development to ensure BIE employees and school personnel have the 
training necessary to address the various safety needs of students and 
personnel in BIE-funded schools. This includes an emphasis on 
supporting schools as they enter their data into NASIS. As such, BIE 
hired critical NASIS personnel in the last year to ensure school 
employees understand the systems that support their students' safety. 
These positions include a NASIS supervisor and seven supporting NASIS 
staff members tasked with supporting schools from specific regions. The 
BIE also held regional training this summer to assist school-level 
employees with utilizing the NASIS system. While BIE is working to 
improve technical assistance to schools to ensure information is 
entered into the system correctly and in a timely manner, internal 
controls have been absent in the past. BIE staff now hold regularly 
scheduled calls and training with schools to ensure school staff 
understand how to input information into the system. Furthermore, under 
Goal 6 of the agency's five-year Strategic Direction--formally 
published in August 2018, BIE created its first-ever data-governance 
board to analyze organization-wide data weaknesses and recommend 
control measures where needed, such as those regarding incidents of 
school violence.

    Question 2. You said in your testimony that schools are directed to 
complete Critical Incident Reports, contact the BIE Central Office, 
their Associate Deputy Director, and a few other people in addition to 
entering date in NASIS. Are you assured that this process happens every 
time, or is training lacking in this area, leaving some incidents 
unreported?
    Answer. BIE utilizes this protocol to ensure uniformity, so BIE 
tracks incidents accurately and decreases response times. However, it 
is plausible that some incidents remain unreported due to human error. 
As such, BIE is working to address recommendations from GAO and the OIG 
to improve protocols and procedures as well as increase access to 
guidance information for utilizing data tracking systems. BIE is also 
providing schools and staff guidance on pertinent mandatory and 
recommended training to ensure that safety is the highest priority at 
BIE-funded schools.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                          Cecilia Firethunder 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Executive Summary
    The Wounded Knee District School is a rural accredited, Tribal 
Grant School in the community of Manderson on the Pine Ridge Indian 
Reservation in Southwestern South Dakota. The original Wounded Knee 
District School was built in 1962 as an effort to consolidate several 
smaller one-room schoolhouses distributed throughout the school's 
service area. An addition was constructed to the original building in 
1982. The current school building is not energy efficient and is mired 
with issues consist with a building that is over fifty-five years old. 
Asbestos tiles exist in eight of the fifteen classrooms. Fire 
suppression is available in less then one-quarter of the buildings 
square footage. The sewer system is a sealed as system and there are no 
cleanout and all sewer pipes are wrapped in asbestos insulation. All 
fire alarm pull stations are too high for younger students. The kitchen 
serving line is non-compliant with food and safety standards and the 
gymnasium functions as the dinning room and creates potential safety 
hazards and scheduling conflicts for all classes. There is not enough 
electrical outlets in classrooms to meet the needs of a modern, 
technology based instructional environment and the original electrical 
breaker panels cannot handle the necessary upgrades to modernize the 
schools. According to the Bureau of Indian Education, the current 
assessed value of the school building is $1.8 million and the 
replacement value is $17 million. The age of the building creates 
renovation, maintenance, and safety challenges that are not easily, or 
inexpensively overcome.
Introduction
    The Wounded Knee District School is a Tribal Grant School located 
in Manderson on the Pine Ridge Indian Reservation in Southwestern South 
Dakota. Original construction of Wounded Knee District School occurred 
in 1962 as an effort to consolidate several smaller one-room 
schoolhouses distributed throughout the school's service area. A six-
classroom addition was constructed in early 1980s. Wounded Knee 
District School has approximately 150 Pre-kindergarten through 8th 
grade students enrolled at the start of 2015-2016. Wounded Knee 
District School (WKDS) is the only Tribal grant school located in the 
Wounded Knee District area.
    Poverty is an unfortunate and consistent condition on most Indian 
Reservations in the United States. Poverty alone is not the only socio-
economic factor that plagues the people on the Pine Ridge Reservation. 
Additional factors such as: geographic isolation; high rates of 
unemployment or under-employment; lack of housing; high rates of 
alcohol and drug abuse; poor health factors; overwhelmed and under 
planned infrastructure; and lack of future opportunities coupled with 
poverty create conditions of social discontent and hopeless in people 
on the reservation, but especially in youth. During a 2014 suicide 
epidemic, the service area of the Wounded Knee District School had one 
of the smallest populations, yet this service area had the highest per 
capita rate of suicide completions of the entire Pine Ridge Indian 
Reservation.
    Most documentation published on the Pine Ridge Indian Reservation 
describes the living conditions here as third world. Housing shortages 
create significant issues in homes as most Tribal families will 
overfill their homes with 15 people or more to ensure that family 
members have a roof over their heads. Most housing on the reservation 
exists as cluster housing, or in mobile homes. Many of the homes are 
dilapidated or are in disrepair. This contributes to the feelings of 
self worth and hopelessness that many youth experience.
    The Pine Ridge Indian Reservation encompasses nearly all of Oglala 
Lakota County (formally Shannon County) in South Dakota and is home to 
the Oglala Sioux Tribe. There are approximately 30,000 tribal members. 
Currently Oglala Lakota County has a per capita income level of 
approximately $8,768 per year and is designated as the poorest county 
in the United States.
    The Wounded Knee District area has a population of approximately 
1,600 people. Students from Wounded Knee District School reside in 
community areas that have extremely high levels of poverty, even when 
compared to the entirely of the Pine Ridge Indian Reservation and 
Oglala Lakota County overall. According to census data, the two largest 
communities in the WKDS service area, Wounded Knee and Manderson, have 
per capita income levels of $2,403 and $4,440, respectively. This 
equates to approximately $46 and $85 per week for community members to 
survive on. There is poverty and there is extreme poverty and the 
difference in the lives of WKDS students is significant.
    In most communities, schools are typically safe havens for 
students. Students go to schools and are greeted by a school staff that 
is there to engage, teach, and enrich the lives of the students. For 
the most part students can expect a school to provide consistency, 
food, safety, and positive interaction with adult staff. Schools become 
respites from the daily grind and constant reminders of the all to 
present conditions and underlying examples of extreme poverty. The 
evidence of living in extreme poverty surrounds Wounded Knee District 
School students, even within the school building.
    What should amount to eight hours of a break from the realities of 
living in extreme poverty, WKDS students attend classes in a building 
that is a continuous reflection and reminder of the harsh conditions 
that await them. This type of saturation in extreme poverty and the 
continuous evidence of this poverty are very taxing on the mindset and 
mental health of students. According to the Bureau of Indian Education, 
the current value of the over 81,000 square foot school building is 
$1.8 million with a replacement value of $17 5 million. The total 
square footage of the school 81,000.WKDS students go to school and 
experience the following on a daily basis:

  <bullet> Eight of 15 classrooms that contain asbestos tiles for 
        flooring.

  <bullet> The Pre-K classroom has tile installed over asbestos floor 
        tiles and the carpet cannot be removed since the asbestos tile 
        cannot be disturbed.

  <bullet> Most of a school building that does not have fire 
        suppression.

  <bullet> Fire alarm pull stations are too high for younger students.

  <bullet> The school gymnasium also serves as the school dining room.

  <bullet> The school kitchen is outdated and has an inadequate serving 
        line that annually is found to violate the Bureau of Indian 
        Education safety and deficiency standards.

  <bullet> The closed sewer system must be re-engineered due to basic 
        plumbing incidents.

  <bullet> The Pre-K and Kindergarten bathrooms are not handicapped 
        accessible.

  <bullet> All sewer pipes under the school have no cleans outs and are 
        all wrapped in asbestos insulation.

  <bullet> Over the past 55 years the much of the sewer pipes have 
        become blocked with waste and mineral deposits. There is no way 
        to clean these sewer pipes since there are no clean outs. The 
        school has more and more sewer backup issues.

  <bullet> The outside of the school foundation is beginning to 
        deteriorate due to age of building and weather of these 
        surfaces.

  <bullet> Many of the interior doors are not fire rated and fail the 
        fire rating code.

  <bullet> All of the interior doors need new locks that lock from the 
        inside to meet new intruder safety guidelines.

  <bullet> The school parking lot is deteriorating due to age and 
        weather.

  <bullet> Inadequate electrical capacity to meet the instructional and 
        information technology needs of a modern classroom. There are 
        not enough outlets and there many of the outlet receptacles 
        were installed at a time period when there were not ground 
        faults.

  <bullet> Electrical breaker boxes throughout the school are outdated 
        and antiquated as most were installed 55 years ago during the 
        original school construction.

  <bullet> The school does not have a back up generate system to 
        accommodate emergency management scenarios such as tornadoes, 
        blizzards, or other electrical outages.

  <bullet> The school sewer system and water system is tied to the 
        school housing systems and any sewer or water issues in the 
        housing affect the school and this has lead to cancellations of 
        school days due to health and safety concerns for students.

  <bullet> The age of the current school facility creates a burden 
        financial in terms of heating, cooling, and lighting the 
        building.

  <bullet> The age of the building is not energy efficient. The school 
        cannot cut costs for lighting, heating, or cooling due to 
        original construction of the building annual utility costs for 
        heating, cooling, and lighting are over $80,000.

    Students that attend WKDS are not able to gain respite and escape 
the health, safety, and environmental evidence that they live, sleep, 
and attend school in extreme poverty. The continuous and long-term 
exposure to these types of conditions make it difficult for students to 
focus, learn, and feel safe. When the suicide epidemic began in 2014, 
the Wounded Knee District service area was one of the hardest hit. Five 
of the completed suicides came from the schools service area alone. And 
the Wounded Knee District service area is one of the smallest 
populations on the Pine Ridge Reservation, yet it had the highest rates 
of suicide completions.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Question 2 from Sen. Daines to Cecelia Fire Thunder. I understand 
the social and economic situations at Northern Cheyenne and Pine Ridge 
are similar. Could you share what behavioral health needs you see among 
BIE students with your tribe?
    My name is Matthew Shoulders. I am the school counselor at Wounded 
Knee District School in Manderson, SD. I just completed my first year 
as the school counselor. I grew up in Pine Ridge, SD and graduated from 
Red Cloud High School as the classes valedictorian in 2007. I went on 
to attend the University of New Mexico in Albuquerque, NM and received 
my Bachelor of Arts in Psychology and my Master of Arts Degree in 
Counselor Education.
    In my first year here at WKDS, I am thankful for such resilient and 
strong children. Although the challenges our community face are great, 
our students are capable of excelling in their education. At the 
community level, our people face high rates of alcohol/substance abuse 
(i.e., meth), participate in gang activity, unemployment and various 
levels of neglect (e.g., elderly abuse, child abuse, sexual abuse, 
domestic violence, educational neglect). Also, in 2016, our community 
had the highest level of suicide on our reservation. Cecelia also 
shared with me during a meeting that the average number of people per 
household in Wounded Knee District is 18, which often leads to multiple 
families requiring vast amounts of resource and can lead to 
overcrowding. Homelessness is also a visible facet of our community and 
on the opposite end of the spectrum, is the issue of overcrowding.
    At the school level, the problems that exist within the community 
often manifests itself in student behavior. Our children carry multiple 
layers of trauma from experiences of everyday life. Behavior is a 
challenge. We have children who carry trauma, anger and frustration. 
Numerous children, throughout my first year, have had serious behavior 
issues, which range from biting, hitting, pushing, deliberately 
dismissing authority figures and blatantly disrespect their peers, 
staff and administration. Ideally, training on how to handle the 
behavior our children exhibit would be very helpful.
    As a school counselor, I believe it would be beneficial to have 
more than one school counselor in each school on the reservation. 
Ideally, we would benefit from one school counselor concentrating on 
academics and another school counselor who concentrates on mental 
health. Not all school counselors receive advanced training or 
practicum/internship in mental health. The same is also true for mental 
health counselors who do not receive advanced training or practicum/
internship in school counseling. If funding would warrant, two 
counselors in the school would be ideal for all of our children.
    As a school counselor at WKDS, I took it upon myself to continue 
the traditional healing component of behavioral health that was 
implemented in the past couple years. Through communication and 
dialogue with our Wakan Iyeska, we were able to get children Lakol Cas, 
Wopakinte, and Woapiye. This is probably the most integral component to 
help our Lakota children combat trauma. At the school, prayer is 
central to our educational identity. We begin every week with prayer 
and azilya. Teachers also wocekiye in their classroom. The language is 
also emphasized in the school with three highly qualified and gifted 
Lakota language instructors. The language, prayer and the ceremonies 
are pivotal to me in helping our children heal. Funding for these types 
of spiritual activities (i.e., payment to the Wakan Iyeska, providing 
gifts for wopila, providing food for the ceremony, material for 
offerings, new clothes for Wopakinte, etc.)

    Little Wound School Board--Office of the Superintendent

    To: Whom It May Concern,

    From: Charles Cuny, LWS Superintendent

    RE: Facility Needs Specific to Little Wound School

    Date: June 28, 2018

    Priority:

    1. New Middle School
    2. New Elementary School
    3. New High School
    4. New Special Education Facilities
    5. New Student Health and Wellness Center
    6. Upgrade overall technology and facility structure to support 
school safety
    7. Additional Portable buildings to give adequate class room space 
5-10 building would help LWS Grow.
    8. Funding for all FI&R Project Related to LWS
    9. Funding for all Safety & Conditions Assessment Portal(S&CAP)
    10. Funding for ADA Noncompliance's
    11. Energy Efficiency Updating of All Heating and Cooling Systems
    12. Paving of Parking lots and road ways.
    13. Expanding Facilities Shop
    14. Building of Auxiliary Gym
    15. Updating and expansion of Cafeteria
    16. Rebuild of Elementary Play Grounds
    17. Rebuild Outdoor Tennis and Basketball Courts
    18. Provide Operations Maintenance Funding to building purchased by 
Tribal Grant Schools

    Facility Issue to Address:

    Provide systematic updating to all Tribal Grant Schools to assure 
they do not miss out on funding related to Maximo system.
    Tribal Grant School take on the Granting and Project Management of 
Facility Upgrades Construction Projects
    Find solutions for BIA and BIE to communicate and Support Tribal 
Grant Schools as it relates to providing Safe and Secure Schools.
    Change the New School Selection Process
Behavioral Situations
Background
    Little Wound School is a Bureau of Indian Education grant school 
with enrollment of around 350 K-5 grade students, 100 6-8 grade middle 
school students and 350 9-12 grade high school students. Little Wound 
School is located in the middle of the Pine Ridge Indian Reservation 
students are transported from around a 50 mile radius of the school.
    The current issues on the reservation of high alcoholism and drug 
abuse, an unemployment rate above 80 percent, more than half the 
reservation population living below the poverty line, diminishing 
fluency in the Lakota language and culture have manifested in a 
breakdown of positive family systems creating high numbers of our 
children experiencing physical, emotional and sexual abuse.
    The Behavioral Situations we face as counselors on a daily basis 
are reactive and are usually in crises mode such as suicidal ideation, 
hopelessness, depression, grief, anxiety, non-compliance, bullying, 
attachment, and family issues. It is difficult to do consistent therapy 
being in constant crisis mode. My believe is these situations stem from 
generational trauma and trauma from adverse childhood experiences. 
Research has shown that unresolved trauma and stress can be passed on 
to offspring epigenetically and research has also shown that children 
who experience trauma (our children sometimes experience multiple and 
continual trauma from adverse events) has an effect on brain 
development. Which keeps them stuck in the survival functioning part of 
the brain's fight, flight or freeze mode in a dysregulated hyper-
aroused or hypo-aroused state with high anxiety, impulsiveness, 
threatening, aggressive, resistant, unable to focus, sit still or 
withdrawing, avoidant, shutting down disassociative, depressed, and 
hopelessness states. Also this stress and trauma hinders them from 
developing and accessing the higher functioning parts of the cognitive, 
reasoning and impulse control part of the brain.
    Current IHS and mainstream Behavioral Health practices have been to 
label and diagnose these students with ADD, ODD, and Depression etc. 
with the primary treatment being with medication, which in most cases 
addresses the symptoms but not the root of the problem, which is the 
trauma and its effects on the brain.
    In recent years there has been numerous research and studies using 
new technology to scan and map the brain to help understand the 
neurobiology and the effects of trauma on the brain. With this new 
understanding of the brain and the capability to scan and map the 
neuronal pathways of the brain, researchers were able to track and 
study what different therapies worked to help integrate and heal the 
pathways in the brain. It was found that mindfulness practices such as 
meditations, breathing, yoga, tai chi, along with play therapy, art 
therapy, writing therapy, equine/therapy, internal family systems 
therapy anything that provided safety, caring and sensory stimulation 
helped the brain to re-integrate initiated healing of the brain and 
release the trauma.
Behavioral Health Needs:
    The Adverse Childhood Experience Study a research study done Kaiser 
Permanente and the Centers for Disease Control and Prevention shows a 
direct correlation between adverse childhood experiences and health 
social problems as an adult.
    One of the important ways to meet the Behavioral Health Needs of 
Little Wound School students and surrounding tribal schools is to 
implement the Trauma Informed School model into our education systems. 
It is a school wide approach to inform, teach and address trauma with 
all staff and students.

    This model requires total staff involvement of Administrators, 
Teachers, Counselors and Support staff in a step by step training and 
implementation plan to provide an environment of safety, caring, 
understanding and connecting with students in way that promotes their 
healing and learning. (It takes a community to raise a child)

  <bullet> Staff, Students and Community learn about trauma ( It is not 
        a behavior problem it is a brain problem)
  <bullet> Leadership and Team building skills
  <bullet> Relationship building skills & strategies
  <bullet> Mindfulness practices/De-escalation strategies
  <bullet> Identifying Students of Concern
  <bullet> Classroom Strategies
  <bullet> Recovery Rooms for dysregulated and escalated students
  <bullet> Development of positive coping strategies
  <bullet> Proactive approach vs Reactive approach
  <bullet> Create a culture of healing within the school

    It would also create a foundation to implement interventions and 
models of therapy listed below to work with identified students of 
concern that need more intense care.

Interventions:
    Listed below are models that found to be most conducive for the 
healing of trauma development of positive coping skills along with 
benefits to student.

  <bullet> Mindfulness practices such as meditations, breathing, yoga, 
        tai chi etc.
  <bullet> Play Therapy
  <bullet> Art Therapy
  <bullet> Equine/therapy
  <bullet> Internal Family Systems Therapy

Benefits
  <bullet> Changing the way one breathes can improve anger, depression, 
        anxiety and reduce stress hormone secretion

  <bullet> These intervention help individuals focus connecting body 
        and emotion in a moment to moment experience where they learn 
        they can tolerate their sensations, befriend their inner 
        experience and cultivate new action patterns of self- 
        regulation.

  <bullet> Allows child to safely express their adverse experience

  <bullet> Counselor able to observe child's view of experience

  <bullet> Allows students to safely establish trust relationship

  <bullet> Traumatized students able to safely express emotions

  <bullet> Provides safe, caring and sensory stimulation helping the 
        brain to initiates healing of the brain and release the trauma.

  <bullet> Focus on developmentally appropriate strategies

    This would create the need for more counselors and training in 
these models, along with applicable constructs in each model for age 
appropriateness.
    Also one of our most important Behavioral Needs is hiring Lakota 
Cultural Mentors ( male/female) in each of our schools (Elementary, 
Middle school and High School ) to help teach Lakota language, values, 
songs and ceremonies. Our children are inherently drawn to the culture 
and it is a very important factor in helping them with their identity 
and promotes healing of their heart, mind and spirit.
[GRAPHICs NOT AVAILABLE IN TIFF FORMAT]


    Behavioral Health Services wish list for students in Elementary, 
Middle and High School.(Currently the only local resources are at the 
IHS facilities in Wanblee, Kyle and Rosebud.) These are not listed in 
any specific order.
    An in-house treatment facility (therapeutic/mental health) for 
teenagers and young adults that is located on our reservation. The 
closeness would allow for stronger transition back to families and have 
closer support. A facility that would create an environment that is 
stable and secure that will promote effective treatment. Support and 
staff to manage and facilitate more group and youth meetings in 
evenings to give young people a safe place to be where they can make 
good, healthy safe choices.
    A safe house facility for young people to go when they need support 
when they need to make the best choice for themselves to remove 
themselves from a home in order to keep themselves safe. There are too 
many times on a weekend where kids do not have food, or a place to 
sleep or just a place where they can be safe if the adults in their 
homes are not making good choices.
    A residential facility for students with developmental disabilities 
(IDEA). This would benefit students whose least restrictive environment 
is a therapeutic residential facility and/or a facility for medically 
fragile students. An in-house treatment facility (drug/alcohol) for 
teenagers and young adults that is located on our reservation. The 
closeness would allow for stronger transition back to families and have 
closer support. A facility that would create an environment that is 
stable and secure that will promote effective treatment.
    Additional funding for to assist children, families, students and 
schools in providing therapeutic support and residential facilities for 
those students who are ``at risk'' to include suicide ideation, 
juvenile delinquency, neglect, etc. is needed. Most states, including 
SD, have resources set aside for families whose children are enrolled 
in public schools. Congress discontinued the funding set aside 
available for BIE Schools known as the Residential Placement Program in 
2008, which assisted students who were identified as at risk and 
students who were IDEA eligible. Nothing has been developed to replace 
these funds so students who are at risk ``fall between the cracks.'' 
This has been demonstrated by the increased number of suicides on the 
Pine Ridge Indian Reservation leading the Oglala Sioux Tribe to declare 
a state of emergency.
        Some of the pictures attached to these responses have been 
        retained in the Committee files.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
